<html>
<title> - [H.A.S.C. No. 112-114]ARMY AND MARINE CORPS GROUND SYSTEM MODERNIZATION PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 112-114]
 
       ARMY AND MARINE CORPS GROUND SYSTEM MODERNIZATION PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 8, 2012


                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
73-440                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 ROSCOE G. BARTLETT, Maryland, Chairman
FRANK A. LoBIONDO, New Jersey        SILVESTRE REYES, Texas
JOHN C. FLEMING, M.D., Louisiana     MIKE McINTYRE, North Carolina
TOM ROONEY, Florida                  JIM COOPER, Tennessee
TODD RUSSELL PLATTS, Pennsylvania    NIKI TSONGAS, Massachusetts
VICKY HARTZLER, Missouri             LARRY KISSELL, North Carolina
JON RUNYAN, New Jersey               MARTIN HEINRICH, New Mexico
MARTHA ROBY, Alabama                 BILL OWENS, New York
WALTER B. JONES, North Carolina      JOHN R. GARAMENDI, California
W. TODD AKIN, Missouri               MARK S. CRITZ, Pennsylvania
JOE WILSON, South Carolina           KATHLEEN C. HOCHUL, New York
MICHAEL TURNER, Ohio                 JACKIE SPEIER, California
BILL SHUSTER, Pennsylvania
DOUG LAMBORN, Colorado
                 John Wason, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Scott Bousum, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Thursday, March 8, 2012, Army and Marine Corps Ground System 
  Modernization Programs.........................................     1

Appendix:

Thursday, March 8, 2012..........................................    33
                              ----------                              

                        THURSDAY, MARCH 8, 2012
       ARMY AND MARINE CORPS GROUND SYSTEM MODERNIZATION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3

                               WITNESSES

Lennox, LTG Robert P., USA, Deputy Chief Of Staff, G-8, U.S. 
  Army; and LTG William N. Phillips, USA, Military Deputy to the 
  Assistant Secretary (Acquisition, Logistics and Technology), 
  U.S. Army......................................................     5
Mills, LtGen Richard P., USMC, Deputy Commandant for Combat 
  Development and Integration, U.S. Marine Corps; BGen Frank L. 
  Kelley, USMC, Commander, Systems Command, U.S. Marine Corps; 
  and William E. Taylor, Program Executive Officer for Land 
  Systems, U.S. Marine Corps.....................................     6

                                APPENDIX

Prepared Statements:

    Bartlett, Hon. Roscoe G......................................    37
    Lennox, LTG Robert P., joint with LTG William N. Phillips....    42
    Mills, LtGen Richard P., joint with BGen Frank L. Kelley and 
      William E. Taylor..........................................    57
    Reyes, Hon. Silvestre........................................    40

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Speier...................................................    73

Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................    77
    Mr. Bartlett and Mr. Shuster.................................    83
    Mr. Critz....................................................    87
    Mr. LoBiondo and Mr. Rooney..................................    84
    Mr. Owens....................................................    86
    Mrs. Roby....................................................    87
    Mr. Rooney...................................................    86
    Mr. Shuster..................................................    85
    Ms. Tsongas..................................................    86
    Mr. Turner...................................................    84
       ARMY AND MARINE CORPS GROUND SYSTEM MODERNIZATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                           Washington, DC, Thursday, March 8, 2012.
    The subcommittee met, pursuant to call, at 10:02 a.m. in 
room 2212, Rayburn House Office Building, Hon. Roscoe G. 
Bartlett (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE 
FROM MARYLAND, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Bartlett. Good morning. Because of the importance of 
today's hearing, I apologize that my opening statement will be 
a little longer than usual.
    The Tactical Air and Land Forces Subcommittee meets today 
to receive testimony on the fiscal year 2013 budget request for 
the Army and Marine Corps ground system modernization programs.
    We welcome our distinguished panel of witnesses: Lieutenant 
General Robert Lennox, Deputy Chief of Staff of the Army, G-8; 
Lieutenant General William Phillips, Military Deputy to the 
Assistant Secretary of the Army for Acquisition, Logistics, and 
Technology; Lieutenant General Richard Mills, United States 
Marine Corps, Deputy Commandant for Combat Development and 
Integration; Brigadier General Frank Kelley, United States 
Marine Corps, Commander, Systems Command; and Mr. William 
Taylor, United States Marine Corps, Program Executive Officer 
for Land Systems.
    Thank all of you for being here and for your service to our 
Nation.
    Based on the fiscal year 2013 budget request, the 
subcommittee hopes to determine: one, the risk associated with 
the Army and Marine Corps' ability to meet the national 
security needs of this Nation; two, how this budget request 
impacts Army and Marine Corps ground systems modernization 
programs and their associated industrial bases; and, three, the 
best estimate of what program adjustments would have to be made 
and additional risk assumed if sequestration were to take 
effect.
    We know that our witnesses support this budget as 
appropriate for the new defense guidance, but we need our 
witnesses to provide more detail on the modernization and 
investment risks and the critical assumptions behind these 
risks given the fact that the Nation is still engaged in major 
combat operations.
    There are two significant concerns that I have that are 
associated with Army and Marine Corps ground systems 
modernization: one, the quality and effectiveness of the 
equipment that will be relied upon by a smaller combat force as 
a result of reductions in force structure and end strength; 
and, two, the effect on the industrial base of ending major 
current programs and anticipating the ability to begin new 
production 3 to 5 years into the future.
    I have concerns over the impact of this budget on the 
defense industrial base at the prime-contractor and vendor-base 
level. Based on this budget request, the industrial base that 
supports the Marine Corps at the battalion level and the Army 
at the brigade-combat-team level is going to have a 3- to 5-
year production break. Both the Marine Corps and the Army plan 
on procuring major platforms into the 2017 or 2018 timeframe.
    At the prime-contractor level, the ranking member and I 
have visited many of these facilities. The workers are well-
trained, very qualified, and extremely patriotic. As you know, 
it can take many years to train a qualified machinist or 
welder. Many of them have served in the military and have 
families and friends that are currently in the military. 
However, if these production lines go completely cold for 
multiple years, these workers will have no choice but to switch 
career fields so that they can take care of their families.
    So the question becomes, what workforce does the Marine 
Corps and the Army expect to have or need in 2017 and 2018 to 
produce these new platforms? What impact would this industrial-
base policy have on the industrial base's ability to surge 
production in response to a future threat or conflict?
    The vendor-base level is even more problematic. These are 
the companies that provide the transmissions, engines, and 
widgets to the prime contractors. In some cases, it can take 
over a year for a vendor to get qualified in order to supply 
critical parts to the prime contractors.
    Once the production lines go cold, these companies will 
simply go away or be forced to increase prices for these 
components and parts. If they do, what will be the impact to 
current fielded ground modernization system programs? And in 
2017, will the prime contractors be forced to go overseas to 
fill this void? Our prime contractors and vendors are trying to 
sustain themselves at a minimum economic quantity level. This 
may not be affordable given the current budget environment.
    As I have stated before, major reductions in the Federal 
budget need to be a major element of correcting the Federal 
deficit. The Department of Defense must share in a fair and 
balanced way in these reductions, and that process is already 
taking place under the Budget Control Act of 2011, with nearly 
$500 billion in cuts planned for DOD [Department of Defense] 
over the next 10 years. But we must achieve a balance, to the 
degree that it is possible, if we hope to have a capable 
military in the future. Allowing certain major prime 
contractors and vendor production lines to go cold may not be 
in the best interest or economically prudent to our national 
defense.
    Is a balance possible? What skilled workers and what vendor 
base do we need in order to produce the innovative weapons 
systems we will require in 2017? How do we incentivize the 
industrial base to promote innovation during this economic 
downturn?
    There have been discussions of this issue, but I have not 
seen any substantive analysis to date that would help us with 
this problem. I agree that foreign military sales may help to 
mitigate some of this risk, but this will not be enough to fix 
this near-term issue.
    We have lost over 6,300 Americans in Iraq and Afghanistan, 
and more than 47,000 have been wounded since September 11, 
2001. In order to perform their missions, whether home or 
abroad, our military must be adequately equipped with the right 
equipment to maximize their combat effectiveness and provide 
for their protection.
    Again, I thank all of you for your service to our country 
and for being here. I look forward to your testimony.
    I would now like to turn to my good friend and colleague 
from Texas, Silvestre Reyes, for any comments he may like to 
make.
    Mr. Reyes.
    [The prepared statement of Mr. Bartlett can be found in the 
Appendix on page 37.]

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
  RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Reyes. Thank you, Mr. Chairman.
    And let me add my thanks, gentlemen, for being here and 
also appreciation for your service and dedication to our 
country.
    The Army and Marine Corps budget request for modernization 
comes at a significant transition time for both Services. At 
this time last year, the Army still had 40,000 troops in Iraq; 
today there are almost none. At this time last year, both the 
Army and Marine Corps were planning on very gradual reductions 
in end-strength, but today both Services are on a much steeper 
ramping-down and significant cutting in the end-strength and 
force structure. And, finally, at this time last year, there 
was no such thing as the Budget Control Act of 2011, so today 
both Services are living with major budget reductions mandated 
by this law.
    For the Marine Corps, the budget request for ground 
equipment modernization is relatively small compared to recent 
years, and it follows a very conservative and very careful 
path. One clear trend is that the Marines intend to lighten up 
the force with a shift back to emphasizing expeditionary 
maritime-based forces. On that issue, it is important for the 
committee to understand how the Marines plan to continue to 
meet force-protection requirements as the equipment gets 
lighter in weight. Otherwise, aside from upgrades to Light 
Armored Vehicles and continued investment in JLTV [Join Light 
Tactical Vehicle], the Marine Corps ground vehicle plans remain 
unclear, and pending several ongoing studies on the future 
needs of the Marine Corps.
    With regard to the Army's budget request, at this time last 
year, the Army had a plan to emphasize investments in network 
communications and aviation while accepting slight risk in 
other areas. At the time, I stated that the Army's plan was a 
solid path forward with perhaps only a few exceptions. 
Unfortunately, the fiscal year 2013 budget request shows a 
significantly different picture for Army modernization.
    First, on the positive side, the Army's request continues 
strong investments in network communications and aviation. 
These are both areas of modernization critical to increasing 
the capability of our troops in Afghanistan, so I strongly 
support the Army's choice to protect this funding.
    For example, while today's hearing is focused on ground 
equipment, the Army's helicopter production request for CH-47 
Chinooks, UH-60 Black Hawks, and AH-64 Apaches continue at a 
very healthy level. Unmanned systems also see strong 
investments, with the Army continuing production of the Grey 
Eagle UAS [Unmanned Aerial System] and upgrades to the Shadow 
UAV [Unmanned Aerial Vehicle] fleet. In the area of network 
communications, there is substantial production funding for 
both the WIN-T [Warfighter Information Network-Tactical] and 
Joint Tactical Radio System.
    On the other hand, while the Army last year was accepting 
some risk to the industrial base in a few select areas, in this 
year's budget this risk has spread across many more critical 
elements of the industrial base that the Nation needs to ensure 
modern, capable ground force equipment. For example, where last 
year only the M1 Abrams production line looked like it was on a 
definite plan to a long-term shutdown, it now appears that the 
Army plans to simultaneously shut down the production lines for 
Abrams tanks, Bradley Fighting Vehicles, Stryker vehicles, 
medium trucks, heavy trucks, and light wheeled vehicles.
    While the Army plans to restart several of these production 
lines in the future, these multiyear line shutdowns could have 
a substantial impact on the future ability of the United States 
to build and maintain sophisticated military combat vehicles. 
As an example, there are only two producers of tracked combat 
vehicles left in the United States. If both of these lines are 
shut down for 3 or more years, who will be available to build 
the Army's Ground Combat Vehicle? If both of these lines are 
shut down, will the second-level suppliers for major 
components, such as transmissions and thermal imaging sights, 
be able to stay in business?
    If they go out of business, where will the Army get these 
major components for the future? Perhaps foreign suppliers? A 
very dangerous proposition. While Secretary McHugh and General 
Odierno pointed to possible foreign military sales as a way to 
bridge these production line shutdowns, so far the committee 
has not received any solid information indicating that foreign 
military sales can truly be counted on to maintain these vital 
production lines.
    Overall, while it is clear that the U.S. Army will get 
smaller, it is vitally important that this is done in a right 
and measured manner. In my view, the path forward must include 
a viable plan to maintain the critical elements of the U.S. 
industrial base necessary to design and build combat vehicles 
and other equipment that the Army of the future will require. 
While it is possible to outsource production of some items to 
our allies, it would be a major change in Department of Defense 
policy if the Army is forced to turn to foreign sources for our 
major ground combat vehicles, both wheeled and tracked.
    If the Army and DOD have deliberately chosen to accept the 
risk of these line shutdowns, then the Congress needs a full 
and complete explanation for the possible impacts to our 
economy and our future ability to produce the equipment that 
our ground forces will need. As of now, we don't have that 
information, but I look forward to getting some more 
information on this critical issue in today's hearing.
    So, with that, Mr. Chairman, I yield back.
    Mr. Bartlett. Thank you very much.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 40.]
    Mr. Bartlett. We will now proceed with the panel's 
testimony, and then we will go to questions. We expect votes at 
about a quarter after. It is my understanding that there will 
be a single testimony from each Service. Thank you all very 
much for being here. Your prepared testimony, all of it will--
without objection, all of your prepared testimony will go into 
the record.
    We will now begin with General Mills--I am sorry, with 
General Lennox, followed by General Mills.

STATEMENT OF LTG ROBERT P. LENNOX, USA, DEPUTY CHIEF OF STAFF, 
                         G-8, U.S. ARMY

    General Lennox. Well, good morning, Chairman Bartlett, 
Ranking Member Reyes. I will abbreviate my comments.
    Members of the committee, first let me thank you for the 
opportunity to testify on behalf of acquisition and 
modernization for the United States Army. On behalf of the 
Chief of Staff of the Army and the Secretary of the Army, we 
want to thank you--sincerely thank the members of this 
committee for your steadfast support and shared commitment to 
our soldiers, both today and tomorrow. And you have 
demonstrated that time and again.
    The really important aspects of the Army's modernization 
have to do with winning today's fight and then preparing for an 
uncertain future. And I would like to talk a little bit about 
each.
    As far as winning today's fight, I want to assure the 
members of this committee that this is, first and foremost, our 
number-one priority in the United States Army.
    General Phillips and I had the opportunity to get to 
Afghanistan last month. I found out that sometimes the 
testimony is broadcast on the Armed Forces Network. So, in the 
case that it is, I just want to reinforce to the soldiers and 
airmen and marines and sailors that are deployed the support of 
everyone on this panel, and I know Congress shares that 
support.
    Our commitment is to give them the best possible equipment 
as efficiently and effectively as possible so that they can 
within today's fight. And there are many examples of that that 
we can share and talk to you about during the testimony if you 
would like.
    Our second commitment it to be prepared for an uncertain 
tomorrow, and we do that really with three tenets. And the 
first one is to empower, protect, and unburden soldiers. And we 
have done that in a number of ways--by improvements to sniper 
weapons, our precision indirect fire systems, nine body-armor 
improvements over the years, improvements to the helmet, 
ballistic underwear, things like that--that help our soldiers 
today and tomorrow.
    The second tenet is to network the force, and we do that 
with investments in WIN-T, our big pipe systems; in Nett 
Warrior, our way to get the soldiers the tactical support they 
need; and several other programs, such as JTRS [Joint Tactical 
Radio System] and the Joint Battle Command-Platforms system.
    And the third tenet is to deter and defeat hybrid threats 
in the future. And we do that by replacing, improving, 
transforming our combat vehicles, our aviation, and our light 
tactical vehicles. And we recognize the concerns to the 
industrial base that, Chairman, you mentioned and Ranking 
Member Reyes mentioned, and we are prepared to talk about those 
today.
    One other point that I would like to make is that all of 
Army modernization is committed to every component in the 
United States Army--the Active Component, the United States 
Army National Guard, and the United States Army Reserve. And 
over the last 5 years, I think you will see that we have made 
dramatic improvements to achieve parity, really, not only in 
equipment on-hand in all COMPOs [components] but also in the 
level of modernization in all COMPOs. We have taken 
congressional advice and counsel on this in the past very, very 
seriously, and we have moved out in that direction.
    We have some challenges for the future. General Phillips, 
in particular, is prepared to talk about acquisition 
transformation. One of the big successes we have had over the 
last year is our teamwork with the United States Marine Corps 
on the Joint Light Tactical Vehicle. By looking at the 
requirements, by getting the requirements under control, we 
think we have saved both time and substantial dollars in that 
program, and it is well on a path. Again, we will be happy to 
answer those questions.
    In closing, the Army goal is really to ensure soldiers are 
equipped for the current fight and all future contingencies. 
Although we are a force in transition during a period of 
potentially declining resources, we must continue to provide 
our warfighters with modernized and capable equipment so that 
they can prevail on any battlefield, against any foe.
    Mr. Chairman, members of the subcommittee, I thank you 
again for your steadfast and generous support for the 
outstanding men and women of the United States Army, our Army 
civilians, and their families. And I look forward to answering 
your questions.
    Mr. Bartlett. Thank you very much.
    [The joint prepared statement of General Lennox and General 
Phillips can be found in the Appendix on page 42.]
    Mr. Bartlett. General Mills.

 STATEMENT OF LTGEN RICHARD P. MILLS, USMC, DEPUTY COMMANDANT 
   FOR COMBAT DEVELOPMENT AND INTEGRATION, U.S. MARINE CORPS

    General Mills. Chairman Bartlett, Ranking Member Reyes, 
distinguished members of the subcommittee, it is indeed an 
honor to be here this morning. First let me start by saying, on 
behalf of all marines, on behalf of their families, on behalf 
of this team, thank you for your extraordinary support of your 
Marine Corps.
    As you know, the Marine Corps is the Nation's expeditionary 
force in readiness. As such, we are prepared for all manner of 
crises. We are prepared to ensure access to the joint force in 
the interagency and, we believe, by being ready at all times, 
to mitigate national risk, especially during a period of fiscal 
retrenchment.
    Over the past year, the forward presence and the crisis 
response of America's marines has created opportunities and 
provided decision space for our Nation's leaders. I would 
remind you that your marines were first on the scene to provide 
humanitarian assistance and disaster relief in the aftermath of 
last year's monumental disasters in that country. We were the 
first to fly air strikes over Libya. Marines evacuated 
noncombatants from Tunisia; reinforced embassies in Egypt, 
Yemen, and Bahrain. And while accomplishing all that, the Corps 
continues to sustain combat and counterinsurgency operations in 
Afghanistan.
    This dynamic ability at a moment's notice to shape, deter, 
defeat, and deny our enemies sanctuary is emblematic of the 
crisis response capabilities that we will continue develop in 
our current force and our future force.
    This year, our unequivocal top priority is supporting our 
30,000 marines currently forward-deployed around the world 
defending our Nation's liberty, shaping our strategic 
environment, engaging with our partners and allies, ensuring 
freedom of the seas, and deterring aggression.
    At the same time, here we will transition to our role as 
the post-OEF [Operation Enduring Freedom] expeditionary force 
in readiness. In doing so, we will accept risk in extended 
ground operations, and we will reshape the Corps for scalable 
crisis response missions such as counterterrorism, 
counterproliferation, disaster relief, security cooperation, 
and reinforcing our allies. It will be enhanced by our critical 
enablers, our special operators, and our cyberwarriors--all 
necessary on the modern battlefield. We will rebalance our 
force posture back to the Pacific, as well as remaining focused 
on the Middle East. The Marine Corps will also be ever-mindful 
of the traditional friction points in other regions and 
prepared to respond as directed by the President.
    Our judicious modernization strategy supports this force 
while recognizing the current fiscal constraints. Our budget 
focuses only on what is good enough and what is absolutely 
required. The Marine Corps' entire budget, to include 
supporting Navy accounts, is only 8 percent of the DOD's. Our 
modernization priorities are the Joint Strike Fighter and the 
MV-22 and an affordable Amphibious Combat Vehicle and then a 
balanced ground combat and tactical vehicle portfolio, to 
include the JLTV and the MPC [Marine Personnel Carrier].
    This testimony addresses ground force modernization, which 
is only 9 percent of our budget and only a fraction of the 
DOD's. Our ground procurement account is approximately $2 
billion a year. Because of our relatively small ground 
procurement account, I would say that additional cuts would 
have a disproportionate impact on your Marine Corps.
    As I said, our top ground priority is the Amphibious Combat 
Vehicle. Of more import to this committee, our second will be 
our shortfall for selected light combat vehicles, which, in 
fact, perform our most demanding missions. For our entire 
portfolio--the Amphibious Combat Vehicle, the JLTV, and the 
MPC--the Marine Corps has taken an aggressive and innovative 
approach, distinguished by integrating mature technologies; 
stressing affordability as a key performance parameter; 
conducting comprehensive system engineering and cost analysis; 
creating a transparent and open dialogue with industry, OSD 
[Office of the Secretary of Defense], and Congress; 
coordinating very carefully our requirements with the U.S. 
Army; employing a streamlined acquisition process with an 
emphasis on competition; and, perhaps most importantly, at the 
very inception of the programs, creating an integrated 
requirements and acquisition team that makes cost-informed 
trades when dealing with requirements.
    The acquisition requirements team testifying before you on 
behalf of the Marine Corps works together on a daily basis and 
at every step along the process. We are completely integrated. 
We ensure best value for the Nation to ensure for our essential 
capabilities.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    Mr. Bartlett. Thank you very much.
    [The joint prepared statement of General Mills, General 
Kelley, and Mr. Taylor can be found in the Appendix on page 
57.]
    Mr. Bartlett. As is my practice, I will defer my questions 
until the end, hoping that they will have been asked. If so, I 
will simply thank you for your testimony and adjourn the 
subcommittee hearing.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    My first question is on the Abrams tank production. The 
Chief of Staff of the Army, General Odierno, recently testified 
that the Army can't afford to keep the Abrams tank production 
going at 70 tanks a year. However, that statement seems to not 
address foreign military sales. In short, the United States may 
not have to pay the entire bill to maintain the Abrams 
production line.
    So my question is, General Phillips, isn't it true that 
what is really needed is a combination of U.S. tank production 
and foreign military in the area of sales and production that 
reaches a minimum sustaining rate for Abrams tanks? And the 
second question is, does the United States have to pay all of 
the cost of keeping this program line open?
    General Phillips. Ranking Member Reyes, up front I must say 
that we have faced some really tough choices in this tough 
fiscal environment. The Army has had to make some tough 
choices, which is the budget that you see before you today. 
Some of those tough choices are looking at all our systems 
across all our portfolios and making tough decisions on what is 
necessary to make sure that this Army is prepared to fight, 
survive, and win on the field of battle.
    In the case of the Abrams tank, we have the world's 
greatest tank. None better in the world today. If you look at 
the average life of a tank--and I completely agree with General 
Odierno, our Chief of Staff--if you look at the average age of 
the tank, it is about 2\1/2\ years. So the modernization that 
we have done over several years, with the great help from 
Congress, has helped us to get into the position that we are in 
today.
    You mentioned foreign military sales, I believe, after your 
first question, sir. That certainly is what I perceive to be a 
key aspect of how to sustain the critical skills and capability 
that was mentioned in the opening statements. Certainly, it is 
not a complete fix, and you can't rely solely upon the FMS 
[Foreign Military Sales] buys. But I believe the Chief of Staff 
and the Secretary, Secretary McHugh, have mentioned that we are 
teamed with Saudi Arabia and Egypt, in particular, to be able 
to continue to pursue some production of tank capability at 
Lima, Ohio. There is the potential for others that have come in 
with cases. None of them--the other ones have not been 
finalized yet. Some of them look more promising than others.
    But I guess I would go back to my experience with aviation, 
sir, having worked that for many years. In aviation, in every 
major platform that we have had over the last 20 years or so, 
foreign military sales has played a key role in sustaining the 
critical skills and the industrial base for aviation. I think 
the FMS, if you look back on the history of the Abrams tank, 
has certainly played a critical role in that, as well.
    Mr. Reyes. Is there any way that anyone can potentially 
guarantee that FMS will be sufficient in order to keep the 
production line open until, say, 2017?
    General Phillips. Sir, I don't think there is anyone who 
could guarantee that FMS would certainly do that. And I would 
not guarantee that.
    But I think what is important is that, as we focus on the 
skills that are necessary, in particular Lima, Ohio, with 
General Dynamics as the facility operator for us, to operate 
the Government-owned, contractor-operated plant, that we retain 
the critical skills that are necessary for us to revamp 
production in fiscal year 2017 or 2018 after we have had a 
shutdown for a period of time to make sure that it is minimal 
to be able to restart. And we think that is somewhere around 
18, 24 months to be able to accomplish that.
    In particular skills, there are about 49 very important 
skilled workforce that work for General Dynamics that we have 
to retain. Beyond those 49, there are others that work in 
armor, looking at developing the next generation of armor that 
will help vehicles today, like Bradley and Abrams, as well as 
prepare for armor solutions for future vehicles, like GCV 
[Ground Combat Vehicle], maybe others. We have to retain those 
skills. Our plan is to make sure that we do that.
    And beyond that, there are some highly skilled productions, 
assembly-line workers that also will help us accomplish this, 
as well.
    But, sir, we have the world's greatest tank, and the 
average age of that tank is such that we believe that we have 
bought all the tanks that we need to buy, including the 42 that 
you funded for us in last year's budget, sir.
    Mr. Reyes. All right. Thank you.
    I have more questions, Mr. Chairman, but I--in order to 
have Members ask questions, I will submit those for the record 
if we don't have time.
    Thank you, General.
    Mr. Bartlett. Thank you very much.
    As required by committee rules, the Members will be 
recognized, those who were here at gavel-fall by their 
seniority on the committee and those that come in after gavel-
fall by the time of their appearance at the subcommittee 
hearing.
    So we now recognize Mr. Turner.
    Mr. Turner. Very good. Thank you. Mr. Chairman, I 
appreciate that.
    Well, I want to follow on the issues of--I appreciate your 
statement of the importance of the Lima tank plant. Being from 
Ohio and, of course, having toured it and toured it with the 
chairman, we know the importance of the facility and the 
specialized nature of the facility. And my question guess to, 
obviously, some of the policy decisionmaking with respect to 
being able to sustain that specialized capability that you just 
mentioned.
    So I would like to spend some time exploring the idea of 
reversibility and the strange notion that we can just turn 
fundamental national security programs off and then turn them 
back on without assuming an unacceptable level of risk and 
incurring tremendous costs.
    The President's strategic guidance states, quote, ``The 
concept of reversibility--including the vectors on which we 
place our industrial base, our people''--I want to emphasize 
that word again--``our people, our Active/Reserve component 
balance, our posture, our partnership emphasis--is a key part 
of our decision calculus.''
    Secretary Panetta explained that this means reexamining the 
mix of elements in the Active and Reserve components; it means 
maintaining a strong National Guard and Reserve; it means 
retaining a healthy cadre of experienced NCOs, noncommissioned 
officers, and mid-grade officers; and preserving the health and 
viability of the Nation's industrial defense base.
    As you are aware, this subcommittee has expressed concern 
about the Army's decision to shut down Abrams production only 
to ramp up production in 2016. This vital aspect of our 
national security industrial base is highly specialized and is 
not something that can just be turned off and then turned back 
on. We only have one facility with the capability to produce 
the Abrams tank. If production stopped, those highly skilled 
workers will leave, and the parts manufacturers that supply 
this capability could dry up. That is why we authorized, last 
year, funding for the program.
    So please explain to me this concept. If a particular parts 
manufacturer goes out of business and they were the only 
producer of that part, how does reversibility take this into 
account? In some cases, depending upon the complexity of the 
part, it can take over a year for a prime contractor to get 
another qualified vendor. What is the risk of increasing our 
vulnerability from an industrial-base perspective? Will we be 
forcing our prime contractors to depend on foreign sources to 
supply critical parts? How does shutting down this production 
line preserve the health and viability of the Nation's defense 
industrial base?
    And I want to put one more caveat on all of this. You know, 
the concept of us not needing any more of a particular item, 
where we are the sole customer of a facility that we are an 
integral part of, doesn't take into consideration the backwards 
management of supply and acquisition. I mean, someone ought to 
have a calculator and a calendar and a piece of paper and a 
pencil and say, now, what is the level at which we need to 
sustain this level of manufacturing for its capability? To 
merely say, ``We are done, and we will be back to you all in 
2016,'' seems not only irresponsible but, as I described in my 
question, risky.
    And who would like to comment on that? General?
    General Phillips. Sir, I will take that for about 1 minute 
and then turn it over to General Lennox for his comments.
    Sir, up front, thank you for your question. Great question. 
We are working with OSD in terms of a sector-by-sector--for us, 
that means by portfolio, essentially--tier-by-tier analysis of 
the industrial base. And the one that is the biggest concern 
that we are talking about today is the combat vehicle 
industrial base. And we are looking at not just tier-one 
suppliers but tier-two and below, like, in the case of Abrams, 
Allison, who builds the transmissions for the Abrams.
    Our program executive officers and their PMs are engaged 
with our industry partners, in this case General Dynamics, to 
make sure that we understand the concerns not just at the prime 
level but, more importantly, as you described, at the sub-tier 
level, so we understand the issues related to sub-tier vendors 
so we can take appropriate actions to seek resolution and keep 
those businesses viable that are necessary in case we restart 
that plant.
    Again, sir, up front, I believe that we have the right 
analysis. RAND has validated----
    Mr. Turner. Did you just say ``in case''? Because my 
understanding was that it was an expectation that of course it 
would restart.
    General Phillips. Actually, we haven't approved 
engineering. I should have said we will. We have an approved 
strategy to actually begin in fiscal year 2017, fiscal year 
2018 to restart the line in terms of engineering change 
proposals, ECPs, that we would apply to the production line 
itself.
    And, sir, I will turn it over to General Lennox for any 
comments he may have.
    General Lennox. I don't know if time permits, Congressman. 
I will give it a shot.
    These are tough choices for the Army. And it is not that--
so it is a choice, do you build more Abrams tanks when you have 
enough and where the Army size is coming down by 80,000 
soldiers so there is a good chance you may, in fact, have extra 
tanks? Do you now go out and do that at the cost of buying some 
of the aviation and networking priorities that are essentially 
higher for us? And it is not only among modernization items; it 
is actually among choices of soldiers. We are coming down 
80,000 soldiers. To put more into investment, do you give up 
more soldiers?
    So these are some of the aspects that the Army took into 
account in making this decision. It was not done lightly. It is 
a very, very serious decision. We know that there are 
ramifications. And so it is a choice of where you want to take 
your risk, Congressman.
    Mr. Bartlett. Thank you very much.
    Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    Thank you, Generals, for being here and for your service to 
this country.
    As you know, the Bradley Fighting Vehicle modernization 
line is going to go cold at the end of 2012. And last October I 
expressed my concern to you about the replacement vehicle for 
the heavy combat team for the M113, as well. And I asked if the 
Army could adopt a Stryker-type acquisition so that the Army 
could award a contract like they did for the Stryker 13 months 
after General Shinseki announced the Army's desire. I also 
asked if there was anything that we could do to be helpful in 
moving this program along more rapidly.
    So the Armed Services conference report expressed concerns 
about the fact that many of the current tracked or wheeled 
vehicles currently in production are scheduled to end before 
2016. Furthermore, the conference report expressed its support 
for AMPV [Armored Multi-Purpose Vehicle], stated concerns over 
the long timelines, and offered suggestions on how to 
accelerate the program. As such, I was very disappointed to 
learn that the Army now doesn't plan to reach Milestone C and 
LRIP [Low Rate Initial Production] until 2017--a full year 
later than was proposed last October.
    So my question is, does the Army plan to replace the M113 
and the heavy brigade combat team with a variant of a vehicle 
that is currently in the Army's inventory?
    General Lennox. Congressman Critz, thanks for your support 
of the facilities there and the production at York, 
Pennsylvania. We are committed to that, too.
    What we have tried to do is to mitigate in our strategy 
this year some of the issues at York, Pennsylvania, by the 
building of more M88-A2 Hercules vehicles, the recovery 
vehicles. It is important for our future. That is something 
that we know we do need for the future, and that was our 
attempt to mitigate some of the production gap concerns. And I 
understand now that we perhaps didn't do it fully for fiscal 
year 2013, but I think we have done a pretty good effort at 
doing that.
    We are seriously looking at how to accelerate the Armored 
Multipurpose Vehicle, as you said. We don't have a way ahead to 
use that, frankly, to completely close the production gap 
concerns there at York. But it is an area that we have looked 
at and we continue to look at.
    General Phillips. Sir, could I add one comment to that?
    We have learned a lot in agile acquisition over the last 
couple years since I have been in this job--JLTV, GCV, and how 
we work Nett Warrior and others. We are applying the same 
principles to AMPV.
    The Milestone C decision that you mentioned in fiscal year 
2017, we are really looking to accelerate that. And we think we 
can really cut that time down by up to maybe 24 months by doing 
things in parallel reference instead of doing them in 
sequential activity. So, we are working on that strategy today 
with AMPV to try to accelerate it to get Milestone C much 
earlier that what you just described, sir.
    Mr. Critz. Well, that is good to hear. And as I asked 
months ago, is there anything that Congress can do to direct 
the Army to accelerate the replacement of this 50-year-old 
vehicle?
    General Phillips. Sir, we thank Congress for what you have 
done to listen to the Department and listen to the Army and our 
concerns in the past. And as we have worked changes to 
statutory law and worked policy changes internal to the 
Department itself, I think Congress has been very helpful for 
us.
    In my own opinion, in terms of the process itself, the 
acquisition process, I think sometimes we blame what I might 
call or some might call the bureaucracy for our failure to use 
the authorities that we have in the appropriate way to expedite 
the process. So what we are doing inside the Army is trying to 
change the paradigm on the way that we think so we can use the 
authorities that Congress has given us and our policies and 
regulations inside the Department to do things a little bit 
better. JLTV, we did that.
    Mr. Critz. Yeah.
    General Phillips. And, sir, I think we will do the same on 
AMPV. So thank you for listening to us.
    Mr. Critz. Well, good, good.
    I have another question, and it involves a remote weapon 
station. And this is both for the Army and the Marine Corps.
    What are the respective Services' strategies to support the 
acquisition, employment, and deployment of key ground systems 
survivability enablers, such as the remote weapon system, which 
have a proven history of injury reduction on the battlefield?
    General Mills. Sir, thank you for that question.
    From the Marine Corps perspective, we have looked at it, 
and at this point we are not going adopt it. However, we are 
looking at our future vehicles, to be able to expand their 
capabilities in the future should the requirement arise and the 
money be available for those types of systems.
    General Lennox. Congressman, it is an option on things like 
the Ground Combat Vehicle. As we go to the future, we will 
sustain the ones that we have, but there is no separate program 
to develop that as a standalone capability.
    Mr. Critz. Okay. All right.
    General Mills and Kelley, as a survivability enabler, has 
the Marine Corps been successful in fielding the improved 
weapons loader station for the Marine Corps armored community?
    General Mills. Sir, if that question specifically regards 
the LAV [Light Armored Vehicle], the 25-millimeter issue that 
we had, we have taken several steps to resolve that issue.
    One of them we found was simply a training issue, that the 
loading problems were a result of poor procedures by the 
gunners to make sure the individual round, for instance, the 
initial round was well-seated into the tray before it was 
fired.
    We have also done some low-level modifications of the 
feeder system to overcome that problem. At this point, we think 
we have it well under control, and we don't believe it is a 
long-range problem for the system.
    Mr. Critz. Good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Bartlett. Thank you very much.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And thank you for your 
leadership and letting junior Members ask questions.
    I am really honored to be here with all of you. Thank you 
for your service. I am very grateful to represent Fort Jackson 
and Parris Island, and I am right next-door to Fort Gordon. So, 
hey, I am in a good place.
    General Mills, I understand the 25-millimeter cannon system 
may have feed problems that could lead to jamming. What is 
being done to address this?
    General Mills. Yes, sir, with the 25-millimeter chain gun 
system, there were some jamming problems. But we found it, 
again, to be a combination of two things. One was to improve 
TTPs [Tactics, Techniques, and Procedures] training, for the 
crew to ensure that the initial rounds were seated into the 
weapon correctly so they did not cause a jam when the weapon 
was engaged. The second was, we found that the tray feeder 
system itself needed some minor modifications to better allow 
the crew to properly seed the weapon, prepare it for shooting, 
and do it.
    So, at this point, as I said, we don't think that is a 
long-range problem with the system. We are happy with it in 
combat. It is performing very well in the southern Helmand 
province, and we are satisfied with the condition of the 
weapon.
    Mr. Wilson. Well, thank you very much. And we are aware of 
the Marines' success in southern Afghanistan, so this is 
terrific.
    For General Lennox and General Mills, I am concerned about 
the consequences of sequestration. And I am very pleased that 
Secretary Panetta has been very clear, raising the alarm of the 
consequences.
    I would like--and I believe the American people need to 
know what the consequences would be. And, sadly, just the term 
``sequestration'' actually puts people to sleep. And so I would 
like to hear both of you comment on what you feel the 
consequences would be.
    General Lennox. You know, as Secretary Panetta said, sir, 
the Department hasn't done any detailed planning. I don't think 
you have to do a lot of detailed planning to know that this 
would have a devastating impact. We would not be able to reduce 
the number of soldiers in time to correspond with the 
requirements of sequestration, so there would be a bill in that 
sense. We would not be able to close installations in a very 
quick period of time, so there would be an added bill.
    Those bills then would be borne somewhere else in the 
Department and would fall disproportionately--and it is just 
mathematics--on modernization and training. So it would have an 
immediate, I believe, my opinion, devastating impact on 
modernization and training of the force.
    General Mills. Sir, I concur with the General's comments. I 
would just add that, as the force in readiness, the Marines 
would be concerned about its immediate impact on our readiness. 
General Amos testified yesterday and talked about the potential 
for a hollowing out of the force. We would be very concerned 
about that.
    Our intent now, even as we reduce the size of the Marine 
Corps, is to maintain our readiness at the very highest levels. 
Sequestration would have a dramatic impact on our ability to do 
that, both from, I think, a training perspective, a maintenance 
perspective, and a manning perspective.
    Mr. Wilson. Thank you both.
    And, General Phillips, could you please elaborate on the 
Army's strategy for procuring a new carbine and for improving 
the current carbine? I understand it is a dual-path strategy. 
Are the strategies affordable? And is there adequate funding in 
fiscal year 2013 and out-years?
    General Phillips. Sir, up front, the funding is adequate 
for the strategy that we have in place. And, as you just 
described, it as a dual strategy.
    The M4A1, the M4 carbine is a world-class weapon. Up front, 
what we are seeing, feedback from soldiers and commanders down 
range, we are seeing that it is five or six times the 
reliability that we originally put into the requirements for 
the M4 carbine itself. We are seeing reliability up to 3,500 
rounds between failure, and the requirement is 600. So the 
weapon itself is performing very well.
    Having said that, we have done over 60 improvements to the 
M4A1. Our strategy is to continue those improvements. We will 
implement an ambidextrous trigger. We will also implement a 
heavier barrel on the M4A1.
    But along with that strategy, we want to make sure that we 
have the world's greatest carbine in the hands of our soldiers. 
So what we have done is implement the improved carbine 
strategy, and what that has allowed us to do is to go out and 
get feedback from industry. We have completed phase one of the 
strategy itself, and we are learning from industry in terms of 
what is available out there in terms of a potential new 
carbine.
    What is most important is the business case analysis that 
we will do between now and fiscal year 2013 in terms of looking 
at, is the new, improved carbine right for the Army, or is the 
M4A1 carbine really good enough? And that analysis is going to 
lead us to the right decision, we think, on the path forward.
    Mr. Wilson. Thank you very much.
    Mr. Bartlett. Thank you very much.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And good morning to all of you.
    I would like to raise the issue of body armor. I have noted 
in this subcommittee several times over the past few years how 
soldiers deployed in Afghanistan are outfitted with body armor 
that weighs as much as 40 pounds. When combined with the gear 
that troops must carry in the field, the total weight our 
soldiers carry can exceed 120 pounds. As we all know, this 
leads to long-term musculoskeletal injuries and creates a well-
documented risk that service members may remove their armor in 
the field because of discomfort and a lack of mobility.
    And I am not alone on this committee in my concern. I know 
that Chairman Bartlett shares this concern as well, as do other 
Members.
    I would urge the Department to do everything in its 
modernization efforts to incentivize lighter-weight body armor 
in its acquisition process--lighter-weight while still matching 
the necessary threats.
    In recent conversations I have had with experts on the 
issue, the consensus seems to be that in the short term it 
should be possible to develop Enhanced Small Arms Protective 
Inserts which are 10 percent lighter than existing models and 
still meet the existing threats.
    But I want to raise a particular issue around this, as 
well. This issue poses particularly unique difficulties for 
women in uniform, who now make up around 14 percent of the Army 
and are estimated to grow substantially and, with their smaller 
frames, are even more susceptible to challenges from the 
excessive weight of the fielded body armor. And under the 
Department's recent review of the role of women in combat, 
which I support, an increasing percentage of women who are 
deployed during contingencies will need to wear body armor in 
theater in the years ahead.
    So my question is, gentlemen, I understand that over the 
past couple of years the Services have been looking into the 
feasibility of developing body armor designed specifically for 
women. While I understand there have been issues with the 
science of conformal plates which better fit female soldiers 
but to date can't provide the same level of protection as the 
conventional plates, this is an issue I hope will continue to 
be researched.
    So my question is, can you give me an update on what 
advances have been made on this over the past year?
    General Phillips. Ma'am, I will take the first cut at that 
and maybe ask General Mills to add his comments, as well.
    We share your concern about the weight that soldiers are 
carrying down range, ma'am. We are working hard on lightening 
the soldier load. The key part of that is the body armor 
itself, which is a heavy piece of what soldiers certainly are 
carrying.
    Most important is allowing commanders to have the option to 
be able to outfit soldiers in a way that meets the threat 
environment. So we have developed the Soldier Plate Carrier 
System that can reduce weight by, on the average, about 10 
pounds for soldiers that are working in the mountains of 
Afghanistan, depending upon how the commander sees the threat 
and how he wants to outfit his soldiers.
    And we are working hard on a new requirement that is coming 
forth from our TRADOC [U.S. Army Training and Doctrine Command] 
to be able to have the same level of protection for body armor, 
yet reduce it by about 10 or 15 percent in weight, as you just 
described, ma'am. So that work will continue.
    And in reference to female soldiers, the best ideas really 
come from soldiers. So we have gone out and we have listened to 
a number of female soldiers. We engaged our Natick Labs in 
Massachusetts. And since May of 2009 through June of 2010, they 
actually went forth and started doing a lot of research into 
body armor for female soldiers and how to make it more 
adaptable for them.
    And what they came up with was a Generation 2 Improved 
Outer Tactical Vest that they could wear. And the 101st 
soldiers, female soldiers, actually deployed into Afghanistan 
with this new outer tactical vest. We just did surveys of 
female soldiers in the 101st--very positive results. The vest 
itself allows them to relax--the same body armor, but it allows 
them to relax it in a way that is more comfortable for them.
    So we got very positive feedback on that. But that is step 
one. Step two, as you just described, is to continue research. 
Natick Labs is doing that. So I think there will be more to 
come on how we can do that better, ma'am.
    Ms. Tsongas. General Mills.
    General Mills. Yes, ma'am, I will echo what General 
Phillips just said.
    The difficulty, of course, with body armor, with any 
protection, is to balance weight against protection. We are 
very, very concerned, obviously, about the protection of our 
marines in the field. We have worked to get a new helmet that 
would be better protection for them. We have worked on groin 
protection for our marines who are out on the front lines. And, 
overall, we were concerned about the weight and have given the 
individual commander on the ground the authority to remove 
plates, to lighten the load based on the mission he has and 
based on the threat that he is facing at the current time.
    We have separated slightly from the Army in some of our 
body-armor requirements due to some mission differences.
    Regarding the females, again, we are very concerned about 
that. As you know, there are no front lines in Afghanistan, so 
even women who are not assigned directly to combat often face 
an enemy threat, and we know we need to be--that they have to 
have the protection they require. And we are working some 
technical aspects of it.
    I am going to turn this over to General Kelley here in a 
second. But, again, as women being more and more involved in 
the fighting, it is important that they receive the protection 
they have and that they wear armor that not only protects them 
but that they are able to function in, as well.
    Ms. Tsongas. You know, I think we have run out of time. But 
I just want to make this statement, that, as you all know, 
Congress has established an individual budgetary line item for 
body armor R&D [Research and Development] because we do want 
development of innovative, effective, lightweight body armor to 
remain a long-term priority of the Department. So I hope I can 
get your commitment to continue evaluating this, both in 
general for all our soldiers, in particular for our women, even 
as we begin to draw down from Afghanistan.
    Mr. Bartlett. Thank you.
    General Kelley, we will have a second round. You will have 
an opportunity to contribute. Thank you very much.
    Now Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your service and your 
testimony today.
    I have one question relating to what Ms. Tsongas was 
talking about. Not only the body armor aspect--and this is for 
you, General Mills--I am talking about lightening the load for 
your marines overall and how committed you are to that. And is 
there enough funding to talk about not only body armor--you 
know, obviously, we have initiatives for new helmets, new head 
gear--and across the load of the whole payload they are 
carrying, is there enough attention drawn to that and enough 
funds there to make sure that happens?
    General Mills. Sir, thank you for that question. Yes, and 
you really hit the nail on the head. It is a holistic approach 
to reducing the weight of the individual soldier or marine on 
the battlefield that is important. We are looking at ways to do 
that.
    Probably the most effective is to reduce the load, for 
instance, in batteries. In today's world, where there is a 
tremendous number of radios and other systems on the ground 
that require batteries, the individual marine carries an awful 
lot of them. So we are looking at solar power, renewable 
resources that would enable us to drop the battery load, allow 
them to carry less weight in those kind of aspects.
    Ammunition is another way in which, again, you can gain 
ounces off a marine's back and off the load that he is 
carrying. Water purification--again, water is probably one of 
the heavier things that a marine has to carry as he moves out 
on patrol. And his ability to use local water sources, to 
purify them, again, reduces that load that he has to step out 
the front gate of the FOB [Forward Operating Base] with.
    So we are looking across the board at ways to reduce that 
individual load of the marine. We are also looking at way to 
reduce the overall weight of the Marine Corps, if you will, 
through things like the JLTV, which will give us a vehicle that 
will be very expeditionary in nature, one that we can fit on 
board the ships, one that will be helicopter-transportable, and 
will lighten the MAGTF [Marine Air-Ground Task Force] as it 
goes to war. So across the board we are looking for ways in 
which we can lighten the load of the individual soldier but 
also lighten the load of the unit as it goes to the point of 
crisis in the future.
    Mr. Runyan. Obviously--you used the term ``holistic.'' Are 
we pushing it or just throwing the ideas out there and seeing 
which one sticks?
    General Mills. No, I think we are pushing it in a 
structured way. We are looking at each piece, if you will, of 
MAGTF and also each piece of the individual marine's load and 
taking a look at it to lighten it.
    Any marine coming back from combat, his first observation 
is that the individual load of the marine, as Congresswoman 
Tsongas pointed out, is simply getting too heavy. Reducing 
radios, for instance--and we have new radios on the shelf that 
we are using and experimenting with that will take three or 
four radio systems and combine it into one platform. That would 
reduce the load, again, of the individual marine. Some of the 
improvements to the M16 that we have done can lighten the load 
ounces, but all of that adds up to the heavy load that we 
expect the combat marine to carry.
    Mr. Runyan. Well, thank you for that.
    With that, Chairman, I yield back.
    General Kelley. Sir, if I could just add----
    Mr. Runyan. Yes.
    General Kelley. You know, you asked if there was a 
commitment. So both General Mills and I had a chance to brief 
the NRAC, which is the Naval Research Advisory Committee, and 
we both emphasized the fact that we know how to target, if we 
are going to lighten the load, looking at an individual marine, 
how we are going to shave ounces off of certain pieces of 
equipment, but then look at the whole MAGTF, is how we are 
going to lighten the entire MAGTF and keep us expeditionary.
    One of the things that we have learned is the logistics, 
the theater logistics, the maturity of that logistics system 
plays a huge part in how much we can lighten the load. And so 
we did some studies with two battalions--one in 2008, one in 
2010. In 2008, ma'am, you mentioned 121 pounds is about what we 
saw back in 2008. As the logistics situation improved, we saw 
that average load of our marines drop down to about 51 pounds.
    So the TTP--which is the tactics, techniques, and 
procedures--that our commanders in the field are employing are 
doing a huge part in helping us lighten the load as well.
    Thank you.
    Mr. Runyan. Thank you.
    Chairman, I yield back.
    Mr. Bartlett. Thank you very much.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today.
    And just a quick thought on the Marines looking at new 
types of ways of lightening the load. I know that one 
situation, there is a solar panel that you guys have looked at 
that is non-glass, much lighter weight, non-reflective, very 
durable. And you were willing to take that forward and test it 
and move forward with that. And we appreciate that willingness 
to look at some ideas maybe from some different places. And 
thank you for that.
    My question--and I am going to make this open-ended for 
anybody to answer this. Obviously, in the combat situations we 
have been in for the last 10 years, we have developed vehicles 
like the MRAP [Mine Resistant Ambush Protected Vehicle] because 
of the asymmetrical type of warfare, the IEDs [Improvised 
Explosive Device], where we have had to provide protection for 
our troops in stationary situations, where we are in certain 
parts of the world and we, therefore, have certain patterns 
and, therefore, are subject to IEDs and this type of asymmetric 
warfare. And so the vehicles we have come up with have been 
responsive to that and, quite honestly, have become some large 
vehicles, heavy-duty vehicles, but we are also talking about 
the JLTV.
    And so I am looking for where are we going with the JLTV, 
in terms of what is the mission for the JLTV, and will it be a 
vehicle that would be protective in the asymmetrical-type 
warfare so that we don't develop a vehicle that we just simply 
can't use if we get into this type of situation again? Which, 
you know, this secret is out; this is a good way to combat 
forces--you know, the IED.
    So I am just curious about where are we going with the 
JLTV, and will it be a vehicle that we will be protective of 
our troops? And what are we going to do with the MRAP to make 
sure we have that vehicle for these type of situations?
    General Lennox. Congressman, one of the key areas that we 
discussed with the Marine Corps as we were designing the 
requirements and refining the requirements for the Joint Light 
Tactical Vehicle is that level of protection and its ability to 
have add-on capabilities--start with a base capability and then 
add on capabilities that protect against the very threat that 
you have talked about.
    So we think the vehicle does have that capability. It is a 
tradeoff of light weight so it can be used aboard a ship or 
used for certain missions and then be reinforced for certain 
other missions. It will not be a cure-all; it won't replace 
everything on the battlefield. But we think in the area of a 
light vehicle we have made sure that the force-protection 
aspects of it are adequate to fight in today's battlefield.
    General Mills. I would just reinforce that the force-
protection aspect has been a critical capability that we have 
looked at. We have balanced it carefully against the overall 
weight of that vehicle to ensure that, again, it is an 
expeditionary forward-deployable vehicle that can operate on 
enemy terrain safely. As you know, the MRAP, very well designed 
for the threat that we saw in Iraq, where there were hard-
surface roads and hard-surface terrain; a little less 
effective, perhaps, if you went into softer areas.
    The MRAPs themselves, the Marine Corps has a little over 
4,000 of them. We intend, as we come out of Afghanistan, to 
retain about 2,500. Some of those will be put into a training 
status so that our marines remain familiar with them, are able 
to maintain them and operate from them. And some will be put 
into a status of bubble wrap, if you will, to be used if the 
need arises again for us to be able to use them, given the 
terrain, given the threat, et cetera. And I will have----
    Mr. Kissell. I am going to interrupt you for just 1 
second----
    General Mills. Sure.
    Mr. Kissell [continuing]. Because you have answered my 
question, but I wanted to make one more point in the few 
seconds I have left.
    General Mulholland with the Special Forces had recently 
signed--publicly signed with NASCAR [National Association for 
Stock Car Auto Racing] a joint understanding of developing 
vehicles for Special Forces with the expertise that NASCAR can 
bring to vehicles. When you can take a racecar and go into a 
wall at 180 miles per hour and walk away, they have some 
knowledge of how vehicles might could absorb energy.
    I would encourage you all, as you move forward, to look at 
what is happening here and perhaps, you know, reach out to 
NASCAR also in your research and development, because no one 
knows more about vehicles than they do in terms of how to get 
speed and protect the people inside too.
    So thank you so much.
    And I yield back, Mr. Chairman.
    Mr. Bartlett. Thank you very much.
    I would now like to welcome the newest member to our 
subcommittee, Ms. Jackie Speier. When she came to Congress in a 
special election, she was my neighbor for several months in the 
next office.
    Thank you. Welcome to our subcommittee. And you are 
recognized.
    Ms. Speier. Mr. Chairman, thank you. And I miss being your 
neighbor.
    I am new to this committee, so forgive me for my ignorance. 
Hopefully, I will improve over the next few months.
    Let me just ask a general question on body armor. I have 
been in conversations with many veterans who have commented to 
me that Dragon Skin, which is made available to Special Forces, 
is very lightweight, is more expensive, but not available to 
the general corps.
    As I look at it, I don't know what the differential is in 
cost. Maybe you can provide us with that information. But the 
costs associated with muscular injuries for a lifetime through 
the VA [Veterans Affairs] system could clearly justify making 
Dragon Skin available, if, in fact, it is the optimal body 
armor.
    So if any of you could respond to that, I would appreciate 
it.
    General Phillips. Ma'am, I will take the first shot at 
that.
    Up front, I would tell you that we have the world's best 
body armor today on our soldiers and our marines downrange, 
hands down the world's best. It has been tested and retested--
probably the most tested body armor. We have made nine 
improvements to the body armor since the war first started in 
Iraq.
    I don't have the exact data, but what I would offer, ma'am, 
is we have the test data for the current body armor, and we 
would be glad to come and sit down with you, as it compares to 
Dragon Skin and what the results might be. And I don't have the 
cost either, but we could certainly lay out the cost.
    But what I want to leave you with is this: The body armor 
that we have procured today that is in the hands of soldiers is 
the world's best body armor. And those soldiers and marines out 
there wearing that body armor is most critical. That will 
protect them from any threat that is designed to defeat on the 
battlefield----
    Ms. Speier. No, I understand that. My issue is, if there is 
something that is better and lighter that we make available to 
Special Forces, maybe we should look at the costs associated 
with having it today versus dealing with the long-term costs of 
musculoskeletal problems for the next 30 years for these 
veterans.
    So I think that is--I am not trying to dispute that you 
have quality body armor.
    General Lennox. Ma'am, if I could, cost has never been an 
issue for us in terms of body armor. It has always been about 
effectiveness. And when the test results--effectiveness and 
appropriateness for the missions has been primacy for us in the 
area of body armor for our soldiers. And I am sure that is the 
same for the Marine Corps
    General Mills. Before I turn this over to General Kelley 
for some technical data, I would just add that body armor is, 
of course, critical to everybody on the battlefield. And there 
are differences based on mission profiles. We have a slightly 
different configuration that we wear than the Army does, based 
on mission profile. Of course, Special Forces has a radically 
different mission profile than any of our forces do on the 
battlefield--all of which accounts for the slight variations 
that you see.
    General Kelley. Ma'am, I don't know specifically what the 
parameters are for Dragon Skin. But, if I can, I can't 
emphasize any more than what General Phillips talked about how 
good the body armor is and the fact that we are allowing 
commanders in the field to tailor which vests--in our case, it 
is the Improved Modular Tactical Vest or the Plate Carrier, 
which will actually reduce the weight by about 7 to 8 pounds, 
depending on what the conditions are.
    When we challenge industry, we have gone out to industry 
and said, hey, we want a 20-percent reduction in weight at 
comparable protection levels that we see today. So our short-
term plan right now is to lower the weight, and we will accept 
some variability in the protection level. Long-term plan is to 
get it lighter-weight and achieve the same protection levels 
that General Phillips mentioned as being probably the best--no, 
definitely the best body armor that our soldiers, marines, 
sailors, and airmen have on the battlefield today.
    Ms. Speier. All right. If I could just get that comparison. 
If someone could make it their job to get me that.
    [The information referred to can be found in the Appendix 
on page 73.]
    General Phillips. Ma'am, we have the task. We will come 
back to you.
    Ms. Speier. All right. Thank you.
    In my remaining time, Lieutenant General Mills, are you 
located at the Marine Barracks? Is that where your offices are?
    General Mills. My headquarters is at Quantico, 30 miles 
south----
    Ms. Speier. At Quantico.
    General Mills [continuing]. Of Washington, D.C.
    Ms. Speier. Okay. All right.
    Then I will yield back the remainder of my time.
    Mr. Bartlett. Thank you very much.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    And thank you, each of you gentlemen, for your service and 
the opportunity I have had to meet with several of you.
    General Lennox, the double-V Stryker vehicles the Army 
quickly manufactured and deployed to Afghanistan are, by all 
accounts, providing much better protection, as we know, than 
the rest of the flat-bottomed Stryker fleet. However, the 
budget request includes no additional funds for the double-V 
Strykers and shows all Stryker production coming to an end in 
early fiscal year 2014. At the same time, the committee has 
been informed that the Army has in access of $800 million in 
unobligated funds for Stryker vehicle production and upgrades 
from previous years' funding.
    So the question that we are wanting to know is, if these 
new Strykers provide much better protection, why not use some 
of the almost $1 billion in funding already in hand to keep 
producing the double-V Strykers to replace some of the flat-
bottomed Stryker vehicles that we have? And if not, then what 
is the money being used for?
    General Lennox. Congressman, thanks.
    We are so proud of the teamwork between industry, Congress, 
and the testing community, and the United States Army in the 
production of these Stryker vehicles. They are saving lives 
today in combat. General Phillips has all the numbers up to the 
latest strike, and the results have been dramatic. So you ask a 
very good question.
    First, the prior uncommitted dollars are all committed 
toward this task of fielding the two brigades that we have 
requested that will both be employed in Afghanistan. We are 
actually building a few more so that we have some additional 
ones for training and a handful more for more thorough testing 
that will take place in the next couple years.
    Mr. McIntyre. When you say ``a few more,'' you mean of the 
double-V Stryker?
    General Lennox. Of the numbers for this brigade. It is 
about 760 that we are buying, all told, sir. You probably 660 
or 670 for the 2 brigades. So we have some extra for training 
and a handful--18, 20--for testing as well.
    So all that funding is going toward that purpose. We have a 
little bit of funding in 2013 to buy Stryker NBC [Nuclear, 
Biological, and Chemical] reconnaissance vehicles that are 
going to replace some really aged vehicles in our fleet.
    Meanwhile, we want to see what the long-term plan is for 
Stryker. And we are basing that on the sizes of our forces 
overall, what is going to happen to the Army, what kind of 
formations we are going to have in the future, and whether or 
not we can afford to go further with the double-V hull. So we 
can't use those funds, but the jury is still out on where we 
are going to go in the future.
    Mr. McIntyre. All right.
    Did you want to add anything to that, General?
    General Phillips. Sir, I would just add that it has been 
truly remarkable. We have had 40 hits downrange in terms of 
encounters with IEDs, and in most of those cases, with just a 
few exceptions, soldiers walk away from the encounter.
    And the other thing that I would share, sir, I just visited 
the Stryker reset and battle-damage repair facility in Qatar 
when General Lennox and I were in theater. Of those 40 that are 
damaged, we think we can return 38 of the 40 and only wash out 
2 of them. So the survivability of the hull itself is really 
remarkable after it has been battle-damaged and then repaired 
and returned back in. So it is exceeding our expectations, sir.
    Mr. McIntyre. Thank you.
    Thank you, gentlemen. Thanks to all of you.
    And thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Mr. Taylor, what question would you like us to have asked 
that you might have answered?
    Mr. Taylor. Sir, I will take anything you want to throw in 
my direction.
    Mr. Bartlett. Is there something that should be on the 
table that is not there that you would like to have on the 
record?
    Mr. Taylor. Anything with respect to one of our big 
programs--JLTV, ACV [Armored Combat Vehicle].
    Mr. Bartlett. Thank you very much.
    General Mills. Mr. Chairman, if I could make a 
recommendation, Mr. Taylor could give you a quick update on our 
JLTV efforts and our coordination with the Army. It is a very, 
very important program to us, very critical, and we want to 
ensure that the committee thoroughly understands both the 
requirement and the plan.
    Mr. Bartlett. Take a minute or 2 to do so, sir.
    Mr. Taylor. Yes, sir.
    Well, my view of the JLTV program is that the value of the 
program has been misinterpreted, beginning with the technology 
demonstration phase. Most individuals assumed that it was 
supposed to deliver a ready vehicle capable of satisfying 100 
percent of the requirements. Quite the contrary. The purpose of 
the TD [technology demonstration] phase was to better inform 
the requirements communities by allowing them to get a glimpse 
of the realm of the possible with respect to those requirements 
and what those requirements costed.
    So that led to the cost-informed trades process that has 
yielded where we are today, where we know where the trade space 
is with respect to requirements and how much it costs. So we 
have a firm handle on the program now by virtue of what we went 
through, the trials and tribulations of that technology 
demonstration phase.
    This program has been a model in terms of doing everything 
Congress and OSD have asked it to do, including trying to 
streamline the timeline to get into production. Over the last 
year, we have reduced that timeline to get to production by 
half. And between the two services, we have cut the cost of the 
proposed EMD [Engineering and Manufacturing Development] phase 
in half. I believe the Marine Corps has reduced the cost of the 
envisioned EMD program by $108 million, and I believe the Army 
is in excess of $400 million.
    So we have done everything that Congress and OSD have asked 
us to do in regards to posturing this program for success.
    Mr. Bartlett. Thank you very much.
    With reference to the question line of Ms. Speier, I sat 
through the Dragon Skin hearings. There is no worse or better, 
depending upon where you are sitting, example of yellow 
journalism than there was with reference to Dragon Skin.
    I will tell you that, from my many years on this committee 
and this subcommittee, there has never been a time when our 
marines and soldiers were not equipped with the best body armor 
available. There were some questions relative to testing, and I 
paid particular attention to that. As far as I know, there 
never was a deviation from protocol that resulted in an 
inferior product going to the fleet.
    One of the examples was, if the first bullet that was shot 
did not have enough velocity, they shot a second one and did 
not remove the plate and put in a new plate. Wow, that was a 
tougher test. That meant the plate was always somewhat damaged 
by the first bullet of lower-than-expected velocity, so the 
second one now added additional threat to it.
    As far as I know, there never was a moment in time when our 
troops ever had anything other than the best body armor out 
there. And there was a lot of very bad journalism relevant to 
this. I wanted to make sure that was on the record.
    I have in front of me an article that was in today's clips, 
``U.S. Army to Congress: No New Tanks, Please.'' When was the 
last time we built a new tank? It was a long time ago, wasn't 
it?
    General Phillips. Sir, it was a long time ago. The Abrams 
started, I believe, in the 1970s, late 1970s, sir.
    Mr. Bartlett. When was the last new tank off the line? We 
aren't talking about new tanks today, are we? Aren't we simply 
talking about taking tanks that are analog and making them 
digital?
    General Lennox. You are exactly right, Congressman. It is a 
rebuild of old hulls and refurbishing and upgrading those.
    Mr. Bartlett. So why do we have titles like--articles like 
this, ``No New Tanks''? We are not suggesting any new tanks. We 
are not building any new tanks. What we are doing is simply 
taking some tanks that are now analog that cannot be involved 
in the network when they are out there--and our Guard has those 
tanks--and we are now converting those to digital tanks so that 
they can fight with the rest.
    What is wrong with a policy, going forward, that we use 
foreign military sales, to the extent that they can keep the 
lines warm, and that we simply supplement that with whatever 
number of tanks that the Guard now has that they cannot fight 
with--because they won't integrate with the network--and 
converting those tanks from analog to digital? Why isn't that a 
rational procedure, going forward?
    General Lennox. Well, first, if I could, Congressman 
Bartlett, the M1A1 AIMs tank, the one that the Guard has, is, I 
would say, the second-best tank in the world. It is----
    Mr. Bartlett. It is analog?
    General Lennox. It is analog.
    Mr. Bartlett. So, why wouldn't we want to make it digital 
so that when they go into combat they can be a part of the 
network?
    General Lennox. It can be--first of all, it can be part of 
the network and it is part of the network as an analog tank. 
But it is a question of dollar tradeoff and what other 
priorities would we not do in order to fund this.
    Many of these tanks are very, very new. They are right off 
the line at Lima, Ohio, I think as you know, Congressman. So, 
we are not talking about older tanks. It is an older variant 
but not an old tank. It is refurbished, it is up to date, it is 
very, very effective.
    So, the question is, what opportunity costs, what else will 
we not do? And does it improve our aviation? That is a 
tremendous demand. Or networking our soldiers, or the size of 
our forces in order to be able to afford building more of these 
that are replacing relatively new tanks that are there. These 
are hard choices, choices we didn't take very lightly, but I 
didn't think it was a choice, in the end, when we made our 
recommendations.
    Mr. Bartlett. I am not sure that we are convinced that 
shutting down the lines and restarting them saves money. There 
is only one brief, kind of quick and abbreviated analysis of 
what this effect would be. We are very much concerned about the 
industrial base. We no longer have the privilege in our country 
of riding on a huge commercial industrial base. The industrial 
base that is out there to do this kind of thing is our 
industrial base, and we can't just stop using it and expect it 
to be there when we want to use it again.
    And so we hope that we can get additional studies, in 
addition to the RAND study, which was--they are doing a little 
bit more expanded one now. But we hope GAO [Government 
Accountability Office] can look at it. We just need to know, in 
fact, will we save any dollars by shutting down the lines, 
letting them go cold, paying the cost of shutdown, paying the 
cost to start up again. And I don't know that there is any 
study out there that indicates that we will save money. And I 
don't know how we reached the conclusion in the budget process 
that we were going to save money when there is no study out 
there that indicates we will save money.
    And we know that we are going to run some huge risks, 
particularly down the line with subcontractors and so forth, of 
their not being there when we need them, and then we are going 
to need to go--this year, the Chinese will graduate seven times 
as many engineers as we will graduate. Would you like to be 
going there for the parts for these vehicles in the future 
because we shut down the lines and they have gone cold and we 
have lost our second- and third-tier subcontractors?
    We just don't know the answers to those questions yet, and 
we hope that we can get enough information so that we can 
intelligently decide what we need to do going forward.
    I have just a couple of real quick questions. We are 
cutting 80,000 troops from the--soldiers from the Army by 2017. 
Did we factor this into what we are going to need for this new 
Army when we are looking at our modernization?
    General Lennox. Chairman Bartlett, in fact, that is one of 
the calculations that we went through. We don't yet know the 
final design of what the Army in 2017 will look like. We have 
some ideas. And each time we do it, we evaluate whether or not 
we are equipped to meet that target and, if not, what the costs 
would be. So it is a big consideration in the final decisions 
that the Secretary of the Army and the Chief of Staff of the 
Army will be making here in the near future.
    Today we have 90 percent of our equipment on hand. So that 
is our projection. At the end fiscal year 2013, with what is 
programmed in fiscal year 2012 to be built, we will have about 
90 percent of our equipment on hand in all COMPOs. So we are 
not in danger of overbuying in the near term.
    Mr. Bartlett. I have a general question relative to energy. 
Oil today is something over $100 a barrel. There is a bit of a 
fear factor in that. I think the legitimate price is about $100 
a barrel.
    There is nothing that we can do in our country, short term 
or really medium, long term, that is going to affect the price 
of oil. It is not determined by whether we build the Keystone 
pipeline--which I want to do, by the way. There is going to be 
an environmental impact wherever you build it. It is either 
going to be down the Mississippi Basin to give us oil in 
Houston, Texas, or it is going to go across Canada, through the 
Rocky Mountains. I don't know how you do that without really 
meaningful environmental impact. And then the oil is going to 
go to China.
    But, you know, oil is oil, and the price is determined on a 
global basis. And so the price of oil will not be affected by 
whether it comes here or whether goes to China. But the 
availability of oil will be improved if it comes here, and so I 
am a big supporter of the Keystone pipeline. And if there will 
be environmental effects--it is not like they are not going to 
dig a pipeline. They are going to dig one. It is either going 
to be down here or it is going to be across Canada, through the 
Rocky Mountains to the coast, and then they are going to ship 
it to China. So I would like it to come here.
    With the reality that the price of oil is just going to 
probably go up in the future, what are we doing to accommodate 
that in our planning for our ground vehicles, which use, I 
think, about a third of all of the liquid fuels that we use?
    General Phillips. Congressman Bartlett, great question.
    Operational energy is absolutely critical for our Army. And 
without energy, our soldiers wouldn't be able to fight, 
survive, and then win on the field of battle. So getting the 
energy to the point of the spear, to our soldiers, all the way 
down to the battery that is on the back of the soldier, is 
incredibly important.
    And we are attacking this in a number of ways inside the 
Army. There are three key strategies. One is soldier power. 
General Mills mentioned some of the things that the Marines are 
doing. We are doing a number of things: using solar panels tied 
to a modular universal way that we can recharge any battery 
that the soldier has. Soldiers today might carry up to 20 
pounds of batteries, and this will help them reduce the 
batteries that they carry.
    Both the GCV--the second area is vehicle power, sir, that 
you mentioned. Both the Ground Combat Vehicle and the JLTV have 
requirements within the strategy that BAE [British Aerospace 
Engineering] and General Dynamics both have in terms of field 
efficiency.
    When you look at what we are doing in Afghanistan and the 
number of convoys on the road, over half of those are 
associated with fuel or water. So when you can reduce fuel 
consumption, whether it is in a base or whether it is in a 
vehicle or whether it is in an aircraft, it is important that 
we pursue those strategies that reduce fuel so we can get 
convoys off the road.
    Sir, you mentioned vehicles. I will talk about aircraft for 
a second. We have been pushing the Improved Turbine Engine 
Program for a number of years. And that is an engine that will 
go inside our Black Hawk and our Apache aircraft, and that is 
going to drive fuel efficiency, we think, by about 25 percent. 
They are heavy users of fuel in Afghanistan, and, as you know, 
they are a workhorse in that theater.
    Along with 25 percent fuel reduction by the ITEP [U.S. Army 
Improved Turbine Engine Program] engine, it will also increase 
power by about 25 percent, which gives you additional lift 
capacity.
    So we are attacking this in a number of ways, sir: base 
power, soldier power, vehicle power.
    General Mills. Sir, I would just add, from the Marine 
perspective, we have two experimental FOBs that we operate here 
in the States each year--one on the east coast, one on the west 
coast--that, again, encourages vendors to come and show us what 
their solar ideas are and their fuel-efficiency ideas are. And 
we take those ideas that we think are usable, get them out to 
the fleet so that we can get verification on them. And that has 
proven very successful.
    Also, with our vehicles, we have used some onboard power-
generation systems, which then eliminate the need to bring 
fuel-powered generators along behind.
    So, as the general said, we are working together with the 
Army and working toward more fuel-efficient vehicles with our 
requirements that we are putting forward, but also other ways 
in which we can save on the margins significant amounts of 
fuel. Because fuel movement in combat is a very, very tough 
tactical problem you have to overcome.
    Mr. Bartlett. As the United States and the world faces a 
crisis in, not energy generally, but in liquid fuels, I want to 
commend the military, all of our services. You have been 
considerably more forward-looking than the rest of the entities 
in our country. Thank you very much for leading the way here.
    Ms. Hartzler, you have joined us. Do you have a question or 
observation?
    Mrs. Hartzler. Thank you, Mr. Chairman.
    I apologize. I missed the first part of hearing, so I hope 
I am not asking a double question. If I do, please let me know, 
and I will get it for the record.
    But I had the opportunity to go--the Army presented over 
here in the Rayburn Building a demonstration on some of the 
robotics that are being employed. And that was very 
encouraging, I think--a way to help identify IEDs and clear the 
fields and that sort of thing. So I had a question about that, 
as well as the V hulls.
    Does the Army and the Marine Corps--and this is for General 
Phillips or General Mills, I guess--do you see additional 
opportunities for robotic systems, such as the remote weapon 
systems or autonomous navigational systems, being incorporated 
into the design of larger ground vehicles?
    And I say that as a farm girl that also sells farm 
equipment, and we have the, you know, systems now that run the 
tractors without, you know, the operator sitting there.
    So, go ahead.
    General Mills. Yes, ma'am. Thank you for that question.
    We have several other systems that we are looking at. Of 
course, robotics has been critical in the EOD [Explosive 
Ordinance Disposal] area, you know, to relieve the threat of 
the individual soldier or marine going forward, to take a look 
at what may or may not be an IED and to disarm it. That is 
proven technology which is useful on the battlefield.
    We have expanded that in the area of the ground. We have a 
platoon-level vehicle, the GUSS [Ground Unmanned Support 
Surrogate], that we use to carry forward. It is unmanned. It 
can carry--takes some of that weight off the individual marine 
and help him on the battlefield.
    Probably one of the more exciting systems is a robotic 
helicopter that we are using right now in theater. We have two 
of them that are operating. They have proven themselves, both 
day and night and under bad weather conditions, to move 
logistics, up to 6,000 pounds, from a FOB up to a location. 
That is a GPS [Global Positioning System]-guided system which 
has really, really proven its worth on the field.
    So we think the--you know, robotics is exciting. It saves 
manpower and, of course, reduces the threat to the individual 
marine or soldier on the ground.
    Mrs. Hartzler. I am glad to hear that.
    Did you want to add anything, General Phillips?
    General Phillips. Ma'am, just a couple of thoughts from a 
Tennessee farm boy, as well, in my background and my 
upbringing.
    But we are excited about unmanned ground vehicles and 
unmanned aerial systems. We have seen exponential growth.
    We have done very well at the Small Unmanned Ground 
Vehicle.
    Mrs. Hartzler. Uh-huh.
    General Phillips. You probably saw the SUGV [Small Ground 
Unmanned Vehicle], which we have a number of those in 
Afghanistan today. There are about 2,500 that are operating in 
Afghanistan right now, Small Ground Unmanned Vehicles.
    Where we have probably challenged is more of the larger 
vehicles that would actually help support a squad or carry 
squad equipment. We do have one system that is in Afghanistan 
now--it is called the Workhorse--that is being fielded by--or 
experimented on, with soldiers using it, that will carry a 
squad amount of equipment.
    I met with our testing team while I was in theater, who 
were doing a forward operational assessment on that vehicle, 
and we would certainly be glad to share that with you. But that 
is an area, I think, that we have to continue to focus on.
    And one final comment. We are teamed with the Marines on 
this. There is the Robotics Systems Joint Program Office that 
works under an Army PEO [Program Executive Officer], but he is 
actually a Marine Corps officer, Colonel Dave Thompson, who 
actually runs that office for us. So our teaming with General 
Mills and our team partnership is pretty strong there.
    Mrs. Hartzler. That makes sense. So that is encouraging. I 
think there is a lot of potential there, not only to get things 
done but to save lives, as well, in doing it.
    Just a quick----
    General Kelley. Ma'am, if I could?
    Mrs. Hartzler. Yes.
    General Kelley. I just wanted to let you know that Dave 
Thompson, just so you don't go there one day and find Dave not 
there, that job is getting ready to turn over. We are sending 
another colonel select up there.
    And I just wanted to let you know that his previous job was 
in the unmanned aircraft system environment. So now we have a 
young Marine colonel who we have groomed in the unmanned 
aircraft system, now he is going to work on the unmanned ground 
systems. And this is really going to help us in terms of 
interoperability and ease the training burden on folks, marines 
and soldiers, that have to actually operate these systems out 
in theater.
    Mrs. Hartzler. Sounds good.
    Well, my time is almost over, and I see that we are voting, 
so I will save my question for later. But thank you very much.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Mr. Critz has a question.
    Mr. Critz. Thank you, Mr. Chairman, for the second round.
    General Phillips, you mentioned that lessons learned, the 
acceleration of the AMPV program, that there is a possibility 
that you could accelerate it by 24 months. What I would ask is 
that, if you can keep my office updated maybe on a quarterly 
basis as to where you are. Because I think we had this 
conversation about 6 months ago, and the budget request doesn't 
really reflect what I think is an accelerated program. So if 
you could just keep us updated.
    And just one quick comment. As you have heard from the 
committee, there are a lot of us that are very concerned about 
the industrial base, the ramping-down of Bradley, the ramping-
down of Abrams. And what we are hearing from you is that it is 
not going to be an issue if it goes cold. What we are hearing 
from industry is that there is a huge issue and a huge expense.
    So, obviously, on your side of the equation, there have 
been some assumptions made on ramping back up. And I would be 
curious to see what those assumptions are, as well.
    Thank you.
    Mr. Bartlett. Mr. Wilson, do you have a question?
    Mr. Wilson. Yes, Chairman, very brief, one question.
    And that is, I am delighted to see efforts at modernization 
of the tactical communications system--Handheld, Manpack, and 
Small Form Fit.
    When I trained at Fort Irwin several years ago, the radio 
equipment we had was just not sufficient. We were told not to 
use our cell phones. And I need to let you know that the cell 
phones worked. So I am delighted to see change.
    So how is that coming along?
    General Phillips. Sir, I would just say up front that we 
are incredibly excited about what we are doing in the network. 
The network is the most important program for the Army. And we 
teamed effectively with the requirements community, the 
acquisition community, the resourcing community that General 
Lennox has worked so hard to resource the programs that you 
just mentioned. And we have also brought our test community 
inside the circle with us. And it is all happening at White 
Sands Missile Range, where we are testing the network in an 
operationally relevant environment.
    What we are doing today, which is what was different than 
you saw at Fort Irwin, is we are building a network that is 
based upon Government solutions and programs of record and 
asking industry to come and help us improve the network based 
upon a common operating environment and open standards and 
specifications, that we can bring those commercial solutions 
and integrate them inside.
    Some of the key aspects of the network are WIN-T, which is 
our long-haul communications. General Lennox mentioned that up 
front. That is critical for connecting theater down to brigade 
battalion level. With WIN-T Inc. 3, it will connect down to 
company.
    The JTRS radios, HMS [Handheld, Manpack, Small Form Fit] 
Rifleman radio that you mentioned, as well, sir, are critical 
inside the brigade, being our mid-tier and lower-tier level, 
connecting soldiers to platoon and company and battalion and 
higher.
    So we are excited about how we are building network at 
White Sands. And in fiscal year 2013 we will deploy that 
network with about eight brigades downrange.
    Mr. Wilson. Well, I am delighted to see the modernization.
    General Kelley. Sir, if I can, it is another great example 
of the Army and the Marine Corps working together. We 
participate in the Network Integrated Evaluation that General 
Phillips just mentioned. We were able to participate last year, 
this past fall, and we will continue our participation in the 
spring.
    One of the great things for us is that we were actually 
able to set up a simulated battalion-and-below constructive 
force out at our Marine Corps Tactical Systems Support Activity 
out in Camp Pendleton, California. And we were able to, over 
the defense research network, we were able to link to Fort 
Bliss, Fort Hood, and White Sands Missile Test Range. And that 
participation is going to help influence the decisions that 
General Mills is going to have to make on where we go with the 
Joint Tactical Radio System.
    Mr. Wilson. Well, thank you very much.
    And I want to echo the concerns of our chairman about the 
reduction of the Army by 80,000 troops and the Marines by 
20,000. I read in a report today that North Korea has called 
its troops into high alert. And I think that by reducing our 
forces we are actually putting our allies at risk, whether it 
be South Korea or Israel. And I am just hopeful that we can 
make some changes. And I appreciate the leadership of our 
chairman.
    Thank you.
    Mr. Bartlett. Thank you very much.
    I know that your leaders have not asked you to do any 
definitive planning for the eventuality of a sequester. It may 
be in a lame-duck Congress after the next election before we 
address that. Because we are irresponsible in the Congress 
doesn't mean that you have to be irresponsible, and so I would 
encourage you to look at the most rational way to draw down if 
you have to. If you are forced to do this in a panic, after the 
November elections, it will not be done anywhere near as 
efficiently as it could be done if you had forward-planned it.
    So, we hope that, without the request from your superiors 
that, you will nevertheless do the rational thing, and that is 
the what-if planning, what if it occurs, what would you do to 
do the least harm to our Services in the eventuality of a 
sequester. The probability of sequester nowhere near approaches 
zero.
    I want to thank you all very much for your service to your 
country and for your testimony today.
    And unless there is another question from our Members, the 
subcommittee stands in adjournment.
    Thank you.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]



=======================================================================

                            A P P E N D I X

                             March 8, 2012

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 8, 2012

=======================================================================

      
                  Statement of Hon. Roscoe G. Bartlett

       Chairman, House Committee on Tactical Air and Land Forces

                               Hearing on

       Army and Marine Corps Ground System Modernization Programs

                             March 8, 2012

    Good morning. The Tactical Air and Land Forces Subcommittee 
meets today to receive testimony on the fiscal year 2013 budget 
request for Army and Marine Corps ground system modernization 
programs.
    We welcome our distinguished panel of witnesses:

        <bullet> LLieutenant General Robert Lennox, Deputy 
        Chief of Staff of the Army, G-8;

        <bullet> LLieutenant General William Phillips, Military 
        Deputy to the Assistant Secretary of the Army 
        (Acquisition, Logistics and Technology);

        <bullet> LLieutenant General Richard Mills, United 
        States Marine Corps, Deputy Commandant for Combat 
        Development and Integration;

        <bullet> LBrigadier General Frank Kelley, United States 
        Marine Corps, Commander, Systems Command; and

        <bullet> LMr. William Taylor, United States Marine 
        Corps, Program Executive Officer for Land Systems.

    Thank you all are for being here and for your service to 
our Nation.
    Based on the fiscal year 2013 budget request, the 
subcommittee hopes to determine:

        <bullet> LThe risk associated with the Army and Marine 
        Corps' ability to meet the national security needs of 
        this Nation;

        <bullet> Lhow this budget request impacts Army and 
        Marine Corps ground system modernization programs and 
        their associated industrial bases;

        <bullet> Land the best estimate of what program 
        adjustments would have to be made and additional risks 
        assumed, if sequestration were to take effect.

    We know that our witnesses support this budget as 
appropriate for the new defense guidance. But we need our 
witnesses to provide more detail on the modernization and 
investment risks and the critical assumptions behind these 
risks, given the fact the Nation is still engaged in major 
combat operations.
    There are two significant concerns that I have that are 
associated with Army and Marine Corps ground systems 
modernization: (1) the quality and effectiveness of the 
equipment that will be relied upon by a smaller combat force as 
a result of reductions in force structure and end strength and 
(2) the effect on the industrial base of ending major current 
programs, and anticipating the ability to begin new production, 
3-5 years into the future.
    I have concerns over the impact of this budget on the 
defense industrial base at the prime contractor and vendor base 
level. Based on this budget request, the industrial base that 
supports the Marine Corps at the battalion level and the Army 
at the brigade combat team level--is going to have a 3- to 5-
year production break. Both the Marine Corps and the Army plan 
on procuring major platforms in the 2017 or 2018 timeframe.
    At the prime-contractor level, the Ranking Member and I 
have visited many of these facilities. The workers are well 
trained, very qualified, and extremely patriotic. As you know 
it can take many years to train a qualified machinist or 
welder. Many of them have served in the military or have family 
and friends that are currently in the military. However, if 
these production lines go completely cold for multiple years, 
these workers will have no choice but to switch career fields 
so that they can take care of their families. So the question 
becomes what work force does the Marine Corps and the Army 
expect to have or need in 2017 or 2018 to produce these new 
platforms? What impact would this industrial base policy have 
on the industrial base's ability to ``surge'' production in 
response to a future threat or conflict?
    The vendor-base level is even more problematic. These are 
the companies that provide the transmissions, engines, and 
widgets to the prime contractors. In some cases it can take 
over a year for a vendor to get qualified in order to supply 
critical parts to the prime contractors. Once the production 
lines go cold, these companies will simply go away or be forced 
to increase prices for these components and parts. If they do, 
what will be the impact to current fielded ground modernization 
system programs? And in 2017, will the prime contractors be 
forced to go overseas to fill this void?
    Our prime contractors and vendors are trying to sustain 
themselves at a minimum economic quantity level. This may not 
be affordable given the current budget environment. As I have 
stated before, major reductions in the Federal budget need to 
be a major element of correcting the Federal deficit. The 
Department of Defense must share in a fair and balanced way in 
those reductions, and that process is already taking place 
under the Budget Control Act of 2011, with nearly $500 billion 
in cuts planned for DOD over the next 10 years. But we must 
achieve a balance to the degree that is possible, if we hope to 
have a capable military in the future. Allowing certain major 
prime contractors and vendor production lines to go cold may 
not be in the best interests or economically prudent to our 
national defense. Is a balance possible? What skilled workers 
and what vendor base do we need in order to produce the 
innovative weapon systems we will require in 2017? How do we 
incentivize the industrial base to promote innovation during 
this economic downturn? There have been discussions of this 
issue, but I have not seen any substantive analysis to date, 
that would help us with this problem. I agree that Foreign 
Military Sales may help to mitigate some of this risk, but this 
will not be enough to fix this near-term issue.
    We have lost over 6,300 Americans in Iraq and Afghanistan 
and more than 46,000 have been wounded, since September 11, 
2001. In order to perform their missions, whether home or 
abroad, our military must be adequately equipped with the right 
equipment to maximize their combat effectiveness and provide 
for their protection.
    Again, I thank all of you for your service to our country 
and for being here. I look forward to your testimony.

                   Statement of Hon. Silvestre Reyes

    Ranking Member, House Committee on Tactical Air and Land Forces

                               Hearing on

       Army and Marine Corps Ground System Modernization Programs

                             March 8, 2012

    The Army and Marine Corps' budget requests for 
modernization come at a time of significant transition for both 
Services. At this time last year, the Army still had 40,000 
troops in Iraq. Today there are almost none. At this time last 
year, both the Army and Marine Corps were planning on very 
gradual reductions in end-strength, but today both Services are 
on much steeper ramps down to significant cuts in end strength 
and force structure. And finally, at this time last year there 
was no such thing as the ``Budget Control Act of 2011,'' and 
today both Services are living with major budget reductions 
mandated by this law.
    For the Marine Corps, the budget request for ground 
equipment modernization is relatively small compared to recent 
years, and it follows a very conservative, careful path. One 
clear trend is that the Marines intend to ``lighten up'' the 
force, with a shift back to emphasizing expeditionary, 
maritime-based forces. On that issue, it is important for the 
committee to understand how the Marines plan to continue to 
meet force protection requirements as its equipment gets 
lighter in weight. Otherwise, aside from upgrades to Light 
Armored Vehicles and continued investment in JLTV, the Marine 
Corps' ground vehicle plans remain unclear pending several 
ongoing studies on the future needs of the Marine Corps.
    With regard to the Army's budget request, at this time last 
year the Army had a plan to emphasize investments in network 
communications and aviation, while accepting slight risk in 
other areas. At the time, I stated that the Army's plan was a 
solid path forward, with only a few exceptions. Unfortunately, 
the fiscal year 2013 budget request shows a significantly 
different picture for Army modernization.
    First, on the good side, the Army's request continues 
strong investments in network communications and aviation.These 
are both areas of modernization critical to increasing the 
capability of our troops in Afghanistan, so I strongly support 
the Army's choice to protect this funding.
    For example, while today's hearing is focused on ground 
equipment, the Army's helicopter production request for CH-47 
Chinooks, UH-60 Black Hawks, and AH-64 Apaches continue at very 
healthy levels. Unmanned systems also see strong investments, 
with the Army continuing production of the Grey Eagle UAS and 
upgrades to the Shadow UAS fleet. In the area of network 
communications, there is substantial production funding for 
both the WIN-T and Joint Tactical Radio System.
    On the other hand, while the Army last year was accepting 
some risk to the industrial base in a few select areas, in this 
year's budget this risk has spread across many more critical 
elements of the industrial base the nation needs to ensure 
modern, capable ground force equipment. For example, where last 
year only the M1 Abrams production line looked like it was on a 
definite plan to a long-term shutdown, it now appears that the 
Army plans to simultaneously shutdown the production lines for 
Abrams tank, Bradley Fighting Vehicles, Stryker Vehicles, 
Medium Trucks, Heavy Trucks, and light wheeled vehicles.
    While the Army plans to restart several of these production 
lines in the future, these multiyear line shut downs could have 
a substantial impact on the future ability of the United States 
to build and maintain sophisticated military combat vehicles. 
For example, there are only two producers of tracked combat 
vehicles left in the United States. If both of these lines are 
shut down for 3 or more years, who will be available to build 
the Army's Ground Combat Vehicle? If both of these lines are 
shut down, will the 2nd-level suppliers for major components, 
such as transmissions and thermal imaging sights, be able to 
stay in business?
    If they go out of business, where will the Army get these 
major components from in the future? Foreign suppliers? While 
Secretary McHugh and General Odierno pointed to possible 
foreign military sales as a way to ``bridge'' these production 
line shutdowns, so far the committee has not received any solid 
information indicating that foreign military sales can truly be 
counted on to maintain these vital production lines.
    Overall, while it is clear the U.S. Army will get smaller, 
it is vitally important that this is done in the right way. In 
my view, that path forward must include a viable plan to 
maintain the critical elements of the U.S. industrial base 
necessary to design and build the combat vehicles and other 
equipment the Army of the future will require. While it is 
possible to ``outsource'' production of some items to our 
allies, it would be a major change in DOD policy if the Army is 
forced to turn to foreign sources in the future for our major 
ground combat vehicles, both wheeled and tracked.
    If the Army and DOD have deliberately chosen to accept the 
risk of these line shutdowns, then the Congress needs a full 
explanation for the possible impacts to our economy and our 
future ability to produce the equipment our ground forces need.
    As of now, we don't have that information, but I look 
forward to getting some more information on this critical issue 
in today's hearing.
[GRAPHIC] [TIFF OMITTED] 73440.001

[GRAPHIC] [TIFF OMITTED] 73440.002

[GRAPHIC] [TIFF OMITTED] 73440.003

[GRAPHIC] [TIFF OMITTED] 73440.004

[GRAPHIC] [TIFF OMITTED] 73440.005

[GRAPHIC] [TIFF OMITTED] 73440.006

[GRAPHIC] [TIFF OMITTED] 73440.007

[GRAPHIC] [TIFF OMITTED] 73440.008

[GRAPHIC] [TIFF OMITTED] 73440.009

[GRAPHIC] [TIFF OMITTED] 73440.010

[GRAPHIC] [TIFF OMITTED] 73440.011

[GRAPHIC] [TIFF OMITTED] 73440.012

[GRAPHIC] [TIFF OMITTED] 73440.013

[GRAPHIC] [TIFF OMITTED] 73440.014

[GRAPHIC] [TIFF OMITTED] 73440.015

[GRAPHIC] [TIFF OMITTED] 73440.016

[GRAPHIC] [TIFF OMITTED] 73440.017

[GRAPHIC] [TIFF OMITTED] 73440.018

[GRAPHIC] [TIFF OMITTED] 73440.019

[GRAPHIC] [TIFF OMITTED] 73440.020

[GRAPHIC] [TIFF OMITTED] 73440.021

[GRAPHIC] [TIFF OMITTED] 73440.022

[GRAPHIC] [TIFF OMITTED] 73440.023

[GRAPHIC] [TIFF OMITTED] 73440.024

[GRAPHIC] [TIFF OMITTED] 73440.025

[GRAPHIC] [TIFF OMITTED] 73440.026

[GRAPHIC] [TIFF OMITTED] 73440.027

[GRAPHIC] [TIFF OMITTED] 73440.028

?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 8, 2012

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MS. SPEIER

    General Phillips. Cost and affordability do not determine the items 
procured to protect Soldiers. Neither the Army nor Special Forces use 
Dragon Skin body armor. Testing has proven that Pinnacle's Dragon Skin 
body armor is not lighter and does not provide Soldiers with the level 
of protection necessary to defeat current small arms ballistic threats 
in theater. All body armor worn by Soldiers today is rigorously tested 
in accordance with a Department of Defense-wide test protocol. Dragon 
Skin body armor has been tested on several occasions by the United 
States Army. In May 2006, H.P. White Laboratory, an independent test 
facility certified by the National Institute of Justice (NIJ) for 
ballistics testing, conducted ballistic tests on Dragon Skin using the 
same test protocols that were used for the Interceptor Body Armor 
system at the time. Dragon Skin body armor suffered 13 of 48 first or 
second round shot complete penetrations and was deemed inadequate for 
Soldier protection. Additionally, in 2007, the Army conducted a Full 
and Open Competition for the next generation body armor. Two Dragon 
Skin designs were submitted and tested at Aberdeen Test Center as part 
of the competition. Both Dragon Skin submissions again suffered 
catastrophic ballistic failures. Lastly, the size large Dragon Skin 
system weighs 47.5 lbs. This is 40% heavier than the 33.95 lb size 
large IBA (Improved Outer Tactical Vest with plates and components) 
worn by Soldiers today. Due to these factors, the body armor currently 
worn by our military offers more effective protection than Pinnacle's 
Dragon Skin body armor. [See page 22.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 8, 2012

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. Regarding the industrial base, the current hope seems 
to be that foreign military sales can compensate at least in part for 
decreased U.S. demand. As often is the case there remains significant 
risk with the foreign military sales market. Is there a risk that loss 
of design and manufacturing capability and capacity in the industrial 
base could undermine the idea of ``reversibility'' emphasized by 
Secretary Panetta? If so, which areas of the industrial base are the 
greatest areas of concern? For example, at the vendor base level both 
the Army and the Marine Corps are dependent upon one Transmission 
Company for many of their platforms. If based on current funding 
profiles this company were to close down or leave the defense industry 
what would be the impact to current and future Army and Marine Corps 
vehicle programs?
    General Lennox. The concept of reversibility allows the Army to 
quickly change its course of action to focus on a new set of 
priorities. To meet the challenge of reversibility in a climate of 
declining budgets, the Army will continue to examine the capabilities 
and capacities in its organic base and among its suppliers in the 
commercial industrial base to ensure it can quickly adapt to changing 
priorities through periodic reviews, such as the Organic Industrial 
Base Capabilities Portfolio Reviews.
    Loss of design and manufacturing capability and capacity in the 
industrial base would present a serious challenge to the Army's ability 
to quickly reverse its course of action. However, the Army is 
undertaking or participating in initiatives to help ensure that design 
and manufacturing capability and capacity in the industrial base 
remains strong. The Army is participating in a Department of Defense-
wide effort to assess the health of and risk to the industrial base on 
a Sector-by-Sector, Tier-by-Tier (S2T2) basis. The S2T2 analysis seeks 
to identify critical areas that could constitute single points of 
failure and develop strategies to mitigate the risks identified. The 
Army is also incorporating mitigation strategies involving the Foreign 
Military Sales (FMS) program to address identified risks. The FMS 
program allows our vendors to diversify and balance military with 
commercial business so they can weather the lean years and be in 
position to compete when we start investing in the next generation of 
products or recapitalize current platforms. FMS sales also help sustain 
highly skilled jobs in the defense industrial base by maintaining and 
extending production lines, thereby strengthening reversibility.
    The impact of a sole-source, commercial sector supplier leaving the 
Defense industry could be significant; however, as indicated above, the 
Army is taking measures to help ensure that the risk associated with 
such an occurrence would be minimal.
    Mr. Bartlett. The National Defense Authorization Act for Fiscal 
Year 2012 required that the GAO conduct a report on the health of the 
tactical wheeled vehicle industrial base, and upon further review of 
the tactical wheeled vehicle (TWV) budget accounts in the FY 2013 
budget request, this report could not be more relevant. All new 
production will cease beginning in FY 2013 and FY 2014. The only major 
acquisition effort by DOD in the tactical wheeled vehicle sector for 
the foreseeable few years will be JLTV, which is designed to replace 
roughly \1/3\ of the current HMMWV fleet. How then do you gauge the 
future health of this sector of the defense industrial base in light of 
these significant reductions?
    General Lennox. The Army gauges the future health of the Tactical 
Wheeled Vehicle sector of the defense industrial base as moderate; the 
reasons are several. This sector has suffered primarily because of 
lower production requirements for light/medium/heavy tactical trucks 
and the cessation of new vehicle production. Disruptions in the sub-
tier supply chains for Oshkosh, AM General, and Textron may negatively 
affect overhaul/rebuild operations at Red River Army Depot. In 
particular, AM General's potential closing of its assembly facility for 
the High-Mobility Multipurpose Wheeled Vehicle (HMMWV) may cause 
significant supply chain disruptions for overhaul/rebuild operations at 
Red River Army Depot.
    The Joint Light Tactical Vehicle (JLTV) is currently in the 
Technology Development phase of the Defense Acquisition Life Cycle and 
may alleviate some of the adverse impacts affecting the lightweight 
tactical vehicle industrial base (i.e., maintaining critical skill sets 
and critical OEMs/supply chain, etc.).
    The Army will continue to assess OEM/critical component suppliers, 
their MSR levels, obsolescence issues, and cyclic production to 
identify adverse impacts and develop mitigation strategies to ensure 
continued life cycle sustainment is maintained.
    The Army will continue establishing partnerships to improve the 
overall health of this sector. For example, ANAD has established key 
partnerships with BAE Systems for the M113 FOV Overhaul & Conversion, 
M88A1 Recap, M88 Repair Components, and Test Track Usage. Other 
partnership examples are: (1) Honeywell for the Tiger Engine, 
Recuperator, Egyptian AGT 1500 Engine, and PROSE; (2) General Dynamics 
for the MRAP--Cougar, AIM XXI, M1A2 SEP, Stryker--Reset and Combat & 
Battle Damage Repair, Fox Upgrade, Test Track Usage, Gunner's Primary 
Sight, Logistic Support Contract, and TUSK; and (3) Raytheon for the 
USMC M1 Support.
    Mr. Bartlett. I understand the Army has indicated that it intends 
to keep a higher amount of M939 5-ton medium tactical vehicles and 
similar medium weight trucks, to be reset at Army depots. The majority 
of the M939 fleet was produced in the 1980s and early 1990s. The newest 
vehicles are being produced as part of the Family of Medium Tactical 
Vehicle (FMTV) program. Could you describe how you allocate medium 
tactical vehicles to the Active and Guard/Reserve Components? Which 
component gets priority for the allocation of FMTVs?
    General Lennox. The Army attempts to address all component 
allocations equally based on requirements and levels of fill. We have, 
however, attempted to prioritize allocations over the last five years 
(FY 8-FY 12) to the Reserve Components with the intent to improve their 
modernization levels. Over the past five years (excluding National 
Guard & Reserve Equipment Appropriation) the Reserve Components have 
received 74% of the 15,600 FMTV's (47% Army National Guard 27% United 
States Army Reserve) placed on contract. In addition, once these 
appropriations are placed on contract, they remain component specific 
and those allocations are provided to each component to be fielded 
based on either the Dynamic Army Resourcing Priority List or internal 
component specific priorities.

    Mr. Bartlett. The need to supply U.S. ground forces with immense 
volumes of fuel, in particular, imposes significant costs upon U.S. 
ground forces. Ground vehicles are responsible for approximately one-
third of the fuel demand of ground forces engaged in combat. What do 
the Army and Marine Corps plan to do to reduce this demand as they 
modernize their vehicle portfolios?
    General Lennox and General Phillips. The U.S. Army takes 
operational energy costs very seriously and is taking steps in our 
Fiscal Year 2013 Budget to reduce fuel costs and the logistical 
footprint that supports our ground vehicles. Both the U.S. Army and the 
U.S. Marine Corps expect the Joint Light Tactical Vehicle, which will 
replace a portion of our High Mobility Multi-purpose Wheeled Vehicle 
(HMMWV) fleets, to be more efficient in terms of payload-ton miles per 
gallon than the HMMWVs that they replace. In addition, the fleet 
managers for Heavy and Medium tactical vehicles have developed a 
detailed fuel efficiency cost model to assist in the evaluation of 
modifications to those fleets for fuel economy improvements. Moreover, 
the Army plans to improve our Abrams and Bradley fleets, with a goal to 
make these fleets about three percent more efficient though the 
incorporation of more efficient transmissions, cooling systems, 
alternators, and, in the case of the Abrams, an improved auxiliary 
power unit. The Army is also investing in next generation technologies 
to reduce overall fuel consumption by developing onboard vehicle 
electric power that provides increased electrical power generation, 
electrifies some vehicle loads and enables export power from the 
vehicle. Furthermore, the Army is evaluating technologies that provide 
energy efficiencies (such as lubricants, cooling systems, waste heat 
recovery, etc) for inclusion in future fleet upgrades.
    Mr. Bartlett. How comfortable are you with the current state of 
modernization for ground combat and tactical wheeled vehicles? What 
concerns do you have regarding the industrial base?
    General Lennox and General Phillips. The Army has a relatively 
young combat vehicle fleet. While these vehicles are relatively young, 
they suffer from Space, Weight, and Power-Cooling (SWaP-C) deficiencies 
due to the protection, communication and detection devices we have 
added to these platforms over the past 10 years. The Army is continuing 
to invest in Abrams and Bradleys through Engineering Change Proposal 
(ECP) programs to overcome SWaP-C challenges. We are also investing in 
the replacement of our Bradley Infantry Fighting Vehicles (IFV) with 
the Ground Combat Vehicle (GCV) and the replacement of M113 Family of 
Vehicles (FOV) with a more protected and capable Armored Multi Purpose 
Vehicle (AMPV). To meet the Army's combat vehicle modernization 
strategy, the Army fully supports maintaining an industrial base. We 
are continuing to assess options to sustain critical industrial base 
capabilities short of procuring additional Abrams tanks and Bradley's 
that are not required.
    The Sustainment (Transport) portfolio modernization efforts support 
the Tactical Wheeled Vehicle (TWV) strategic priorities to provide 
protected mobility for our Soldiers in all missions, and maintain an 
appropriately sized, high quality TWV fleet. The FY13 budget submission 
supports Army objectives to fund Joint Light Tactical Vehicle (JLTV) 
RDT&E requirements to support the Milestone B decision, completes 
funding for requirements of the Family of Medium Tactical Wheeled 
Vehicle (FMTV) fleet by the end of FY14 and continues to modernize the 
Heavy Tactical Wheeled Vehicle fleet through the recapitalization 
(RECAP) program. Mine Resistant Ambush Protected (MRAP) vehicles will 
rely on Overseas Contingency Operations (OCO) funds to upgrade until 
the program transitions to the Army. Additionally, the FY13 budget 
submission supports modernization of the service life extension program 
(SLEP) for the Logistics Support Vessels. The Army is aware that the 
industrial base will be affected through the loss of HMMWV RECAP and 
FMTV completion. We will continue to buy or RECAP vehicles into the 
future but at fewer quantities. Procurement will include multiple 
purchase cycles to reduce cost and allow technology to be integrated 
into the vehicle during production.
    Mr. Bartlett. What are the plans for the M113 replacement program, 
the AMPV? Is there an approved timeline and are wheeled vehicles being 
considered? Does the Analysis of Alternatives include using some of the 
MRAP fleet?
    General Lennox and General Phillips. The AMPV program seeks to 
replace the aging Armored Personnel Carrier (M113) fleet within the 
Heavy Brigade Combat Team (HBCT). Planned vehicle capability is 
categorized within the framework of five mission roles: General 
Purpose, Mortar Carrier, Mission Command, Medical Evacuation, and 
Medical Treatment. On February 9, 2012, the Defense Acquisition 
Executive (DAE) approved the AMPV Materiel Development Decision (MDD) 
and authorized the program's entry into the Materiel Solution Analysis 
(MSA) Phase. The approval of the MDD and the MSA initiates the Analysis 
of Alternatives (AoA). These approvals were documented in the AMPV 
Acquisition Decision Memorandum, dated March 16, 2012.
    An AoA is currently being conducted in accordance with the Weapon 
System Acquisition Reform Act of 2009. The Caiman Multi-Terrain Vehicle 
and the Stryker Double-V Hull vehicle are the two wheeled options being 
considered as part of the AMPV AoA. The Army anticipates the AoA will 
be complete in the Fourth Quarter of Fiscal Year 2012. The Army expects 
the Joint Requirements Oversight Council (JROC) to approve an AMPV 
requirements document in early Fiscal Year 2013. With a completed AoA 
and an approved requirement, the Army will be postured to request DAE's 
approval to release the AMPV Request for Proposal to industry.
    Mr. Bartlett. We appreciate the fact that the decision to cancel 
the MECV was due to budget constraints. Nonetheless, we recognize the 
limitations of the HMMWV. What do each of the services plan to do to 
improve the fuel efficiency and capabilities of their enduring HMMWV 
fleet?
    General Lennox and General Phillips. The U.S. Army's priority 
efforts to improve the capability of our Light Tactical Vehicle fleet 
will be accomplished through investments in the Joint Light Tactical 
Vehicle. The overall health of the HMMWV fleet is excellent with 
roughly 100,000 vehicles of the U.S. Army's 160,000 HMMWV fleet having 
an average age of just under four and a half years due to the new 
procurement of the Up Armored HMMWVs (UAH) and our Depot 
Recapitalization programs.
    The Army is continuously seeking new opportunities to improve fuel 
efficiency. Some of these efforts include a lightweight door developed 
for UAH variants to reduce vehicle weight and fuel consumption. We are 
considering many options to improve the existing HMMWV fleet with the 
$70 million added by the U.S. Congress in the Fiscal Year 2012 
appropriation. We will continue to explore opportunities to identify 
better components and modernization through spares whenever feasible.

    Mr. Bartlett. Regarding the industrial base, the current hope seems 
to be that foreign military sales can compensate at least in part for 
decreased U.S. demand. As often is the case there remains significant 
risk with the foreign military sales market. Is there a risk that loss 
of design and manufacturing capability and capacity in the industrial 
base could undermine the idea of ``reversibility'' emphasized by 
Secretary Panetta? If so, which areas of the industrial base are the 
greatest areas of concern? For example, at the vendor base level both 
the Army and the Marine Corps are dependent upon one Transmission 
Company for many of their platforms. If based on current funding 
profiles this company were to close down or leave the defense industry 
what would be the impact to current and future Army and Marine Corps 
vehicle programs?
    General Phillips. The risks that loss of design and manufacturing 
capability and capacity in the industrial base could undermine the idea 
of ``reversibility'' are minimal. The Army is ensuring that industrial 
base reversibility is carefully assessed and managed by: (1) continuing 
on-going efforts to determine the health of Industrial Base sectors 
critical to support Army and Joint Services programs; (2) identifying 
and assessing current status of organic and commercial critical 
manufacturing and maintenance capabilities required to meet future Army 
contingency Reversibility & Expansibility requirements; and (3) 
identifying supply chain issues in design, manufacturing and 
sustainment that can present risk to critical Army capabilities.
    The impact of a sole-source, commercial sector supplier leaving the 
Defense industry could be significant; however, as indicated above, the 
Army is taking measures to help ensure that the risk associated with 
such an occurrence would be minimal.
    In the case of a single point failure in the transmission sector, 
the Army is currently working with the commercial sector of the 
industrial base to develop and implement mitigation plans to resolve 
this issue.
    Mr. Bartlett. The National Defense Authorization Act for Fiscal 
Year 2012 required that the GAO conduct a report on the health of the 
tactical wheeled vehicle industrial base, and upon further review of 
the tactical wheeled vehicle (TWV) budget accounts in the FY 2013 
budget request, this report could not be more relevant. All new 
production will cease beginning in FY 2013 and FY 2014. The only major 
acquisition effort by DOD in the tactical wheeled vehicle sector for 
the foreseeable few years will be JLTV, which is designed to replace 
roughly \1/3\ of the current HMMWV fleet. How then do you gauge the 
future health of this sector of the defense industrial base in light of 
these significant reductions?
    General Phillips. Shrinking budgets combined with the healthy state 
of readiness within the tactical vehicle fleet necessitate a reduction 
in the number and size of new orders for tactical wheeled vehicles over 
the next few years. Although demand for military vehicles will decline, 
commercial market heavy-duty truck sales are expected to continue their 
recovery from the past recession. The supply chains for on-road 
commercial trucks and off-road equipment are important because they 
provide vehicles and components to the military as well. Nevertheless, 
the Department of Defense will monitor the situation and take actions 
as necessary to preserve military-unique, single- or sole-source 
capabilities.
    Mr. Bartlett. Could you clarify the request for $271.0 million for 
HMMWV recapitalization in the Overseas Contingency Operations (OCO) 
account? Will this work be intended for Army depots or do you plan to 
compete this effort with private vendors?
    General Phillips. The $271M OCO request is intended to recapitalize 
approximately 2,128 Up-Armored HMMWV (UAH) returning from theater. The 
work is a continuation of an ongoing U.S. Army depot effort funded with 
Fiscal Year 2010 through 2012 dollars and serves to ramp down the 
workload. This recapitalization is consistent with the U.S. Army's 
Tactical Wheeled Vehicle Strategy and will serve to renew the service 
life for the remaining UAHs from theater that will remain in the 
inventory. The U.S. Army will not compete this effort which is 
currently ongoing.

    Mr. Bartlett. Last year the Marine Corps was aggressively pursuing 
an Up-Armor HMMWV survivability initiative program; a major component 
of this program was the structural blast channel design program. I 
understand the Marine Corps is no longer resourcing an Up-Armor HMMWV 
survivability program. Please walk us through your recapitalization and 
modernization strategy for the Up-Armor HMMWV fleet. What is the status 
of the structural blast channel design program?
    General Mills and General Kelley. The USMC and our Army partners 
are aligned regarding JLTV as the preferred light fleet investment 
alternative. Based on the lessons learned and extensive analysis 
conducted as part of JLTVs 27 month Technology Demonstration phase and 
experimentation with novel HMMWV survivability designs, we know JLTV 
will provide superior force protection, mobility, transportability, and 
reliability compared to alternatives. Accordingly, by FY22, the Marine 
Corps will replace approximately \1/3\ of our legacy HMMWV fleet with 
JLTVs. We intend to sustain our remaining legacy HMMWVs through a 
Sustainment Modification line that will provide safety and mobility 
related component level upgrades, estimated to cost approximately 
$60,000 per vehicle. In combination with our existing depot level 
maintenance program, the HMMWV Sustainment Modification line will keep 
our legacy HMMWV fleet viable through FY30 timeframe.
    The Marine Corps does not have a structural blast channel (SBC) 
program and is not committing funding to explore its capabilities. As 
discussed above, our experimentation testing conducted during Spring/
Summer of 2011 informed the Marine Corps regarding SBC capabilities. We 
understand the physics and impacts the SBC, or ``chimney,'' has on 
vehicle design, performance, survivability, and cost.
    According to Limited User Testing using Marines, the 12'' x 12'' 
chimney located in the mid section of the modified HMMWV had negative 
impacts on crew visibility, communication, and immediate action drill 
response. Due to the increased vehicle weight to improve survivability, 
off road mobility and performance were severely degraded. Survivability 
improvements were due to fully integrated design, energy dissipating 
floors and seats, and structural rigidity as opposed to the chimney. 
Finally, in addition to a $70k-$100k for a SBC cab, a properly 
integrated vehicle would include a modified HMMWV frame, upgraded 
suspension, power train and brake modifications to account for a GVW 
over 16,000 lbs. $240k, or the base price for a JLTV, is the estimated 
cost for these modifications. Accordingly, the USMC and our Army 
partners agree that JLTV is the preferred Light Vehicle investment 
alternative.

    Mr. Bartlett. Regarding the industrial base, the current hope seems 
to be that foreign military sales can compensate at least in part for 
decreased U.S. demand. As often is the case there remains significant 
risk with the foreign military sales market. Is there a risk that loss 
of design and manufacturing capability and capacity in the industrial 
base could undermine the idea of ``reversibility'' emphasized by 
Secretary Panetta? If so, which areas of the industrial base are the 
greatest areas of concern? For example, at the vendor base level both 
the Army and the Marine Corps are dependent upon one Transmission 
Company for many of their platforms. If based on current funding 
profiles this company were to close down or leave the defense industry 
what would be the impact to current and future Army and Marine Corps 
vehicle programs?
    General Mills, General Kelley, and Mr. Taylor. Marine Corps 
Programs do not impact the defense industrial base as much as the 
larger joint programs in which we are a small participant. Marine Corps 
programs do have an impact on many small business that perform work 
tailored toward more specific Marine Corps requirements. As with any 
level of budget reduction in our investment accounts, the new defense 
strategy and our associated reduced funding and force structure mean a 
smaller demand, proportionately, for the small business. We have tried 
very hard to work with our industry partners, demonstrated by our 
planned MV-22 MYP and our depots, during these challenging times.
    In the case of the transmission manufacturer, the Marine Corps does 
its best to plan for possible major sub component obsolescence or a 
vendor that goes out of business in order to ensure parts support for 
our equipment during the sustainment phase. By procuring our vehicles 
using performance-based specifications vice rigid government military 
specifications, industry has greater flexibility for cost-effective 
technology insertion in the design and production of sub components. 
There will always be a big impact on an end item such as a truck if a 
major component like a transmission is no longer available. A 
replacement component which meets the performance standards has to be 
found, tested and eventually procured to replace the component that is 
no longer available.
    Mr. Bartlett. The need to supply U.S. ground forces with immense 
volumes of fuel, in particular, imposes significant costs upon U.S. 
ground forces. Ground vehicles are responsible for approximately one-
third of the fuel demand of ground forces engaged in combat. What do 
the Army and Marine Corps plan to do to reduce this demand as they 
modernize their vehicle portfolios?
    General Mills, General Kelley, and Mr. Taylor. The limited new 
vehicle platform program starts under way in the Marine Corps each 
specifically address the need for improved fuel efficiency, calling out 
in development documentation unprecedented demands for improvement, the 
exploration of hybrid and emerging technologies, and the consideration 
of lighter component materials.
    Toward legacy fleets, multiple efforts are under way to improve 
platform performance. In conjunction with the Office of Naval Research, 
the Marine Corps is conducting an examination of the MTVR 7 ton truck 
(medium fleet), with the goal of improving fuel efficiency a minimum of 
15%, constrained by a fiscal limitation per platform. It is hoped this 
improvement can be realized through the insertion of existing 
technologies within the transmission, drive train, and engine idle. 
Further the incorporation of an Auxiliary Power Unit is being tested, 
which would be used to energize several electronic components and 
systems on the truck while it is stationary, without requiring the 
engine to be idling and burning fuel. Based on the success of this 
effort, the finding would be applied to the LVSR (heavy fleet) 
vehicles. Toward the HMMWV (light fleet), while undergoing 
modifications to return performance (payload/mobility) technology 
inserts will be examined to likewise improve HMMWV fuel efficiency.
    To further impact a reduction in fuel demand, modernization of 
tactical trailers is under way, which will sustain the throughput 
requirement of cargo and supplies, while reducing the number of vehicle 
platforms required to provide the needed capacity. The MTVR cargo 
trailer will nearly double the amount of cargo a single MTVR can 
transport, and the PLS trailer will do the same for the LVSR, reducing 
the number of fuel burning platforms while moving the same volume of 
cargo.
    The Onboard Vehicle Power System is being tested on the MTVR and 
HMMWV. This system provides a vehicle platform with essentially an 
integrated power generation capability, where the vehicle itself will 
provide exportable power, and in doing so eliminate a standalone 
generator and utility trailer, freeing the vehicle and its towing 
capacity to transport more cargo, while eliminating an additional fuel-
burning piece of equipment.
    Additionally, the extensive rebalancing of legacy fossil-fuel-
burning generators and the introduction of an improved fuel-efficient 
generator family across the Marine Corps, coupled with the expanding 
introduction of renewable power generation systems in multiple roles, 
will tangibly reduce the overall number of these systems and amount of 
fossil fuel required to provide the required energy in the field. 
Though this action will not directly impact the fuel efficiency of 
transportation platforms, it will measureably decrease the amount of 
equipment requiring not only transportation, but refueled as well, and 
in doing so, reduce ground resupply requirements and overall force 
fossil-fuel demands.
    The Marine Corps recognizes that the service enterprise solution to 
improved fuel efficiency rests not in a singular vehicle, but a 
culmination of legacy and future platform performance improvements, 
changes in tactics and procedures, and capitalization upon emerging 
technologies, as well as the education of current and future Marines.
    Mr. Bartlett. How comfortable are you with the current state of 
modernization for ground combat and tactical wheeled vehicles? What 
concerns do you have regarding the industrial base?
    General Mills, General Kelley, and Mr. Taylor. The Marine Corps is 
beginning a series of long-term modernization efforts focused on 
replacement of the aging Amphibious Assault Vehicle (AAV) and a portion 
of the High Mobility Multi-Wheeled Vehicles (HMMWV). The Marine Corps' 
single tactical wheeled vehicle modernization program is the Joint 
Light Tactical Vehicle (JLTV). The JLTV's requirements are mature and 
stable. The program will begin the Engineering Manufacturing and 
Development phase this spring. The JLTV represents an effective 
collaboration between the Marine Corps and the Army to modernize a 
portion of the light tactical vehicle fleet. Our priority is to replace 
critical weapons, Command and Control, and utility variants of the 
HMMWV in order to restore payload and mobility to the fleet which has 
been degraded by ever-increasing armor loads and power consumption 
demands. The technology development phase of this program which is now 
complete demonstrated a strong and competitive U.S. industrial base 
well capable of developing and manufacturing a vehicle to meet our 
expeditionary requirements. We have sequenced procurement of the JLTV 
ahead of our AAV replacements because of the maturity of the program 
and our ability to complete the majority of procurement before we begin 
procuring the AAV's replacement.
    Marine Corps modernization of combat vehicles will focus on 
infantry armored mobility to support both amphibious and landward 
combat missions. The modernization of our amphibious combat vehicle 
capability, currently the AAV, is critical to our ability to meet 
future operational demands. Our current plan calls for the replacement 
of the AAV with two complementary platforms to meet our expeditionary 
armored mobility requirements for Marine infantry forces. The 
initiatives are called Amphibious Combat Vehicle (ACV) and Marine 
Personnel Carrier (MPC). The ACV is intended to meet, at a minimum, 
basic amphibious operational capabilities and capacities through a 
self-deploying amphibious tracked vehicle and provide effective follow-
on land mobility for a portion of infantry forces. The MPC, a multi-
wheeled armored personnel carrier, is a complementary capability. It 
will be capable of entry into theater via Navy-provided connectors such 
as the LCAC as well as via strategic airlift and secured ports. Its 
foundational requirements will drive design (largely available on the 
current market) that is more suited to extended landward mobility in 
high-speed maneuver operations as well as in much more constrained 
maneuver but IED-threat-prone environments such as we faced in the 
later stages of operations in Iraq and in Afghanistan. We are 
continuing to assess the required capabilities, capacities of each 
platform and the affordability of any portfolio options. Through a 
disciplined MPC technology development effort we have a solid 
understanding of the industrial capacity to meet our requirements and 
do not have any concerns. Similarly, our cost-informed systems 
engineering work on ACV requirements, together with industry 
interaction gives us confidence that the U.S. industrial base can 
support the unique requirements associated with the ACV.
    Mr. Bartlett. The National Defense Authorization Act for Fiscal 
Year 2012 required that the GAO conduct a report on the health of the 
tactical wheeled vehicle industrial base, and upon further review of 
the tactical wheeled vehicle (TWV) budget accounts in the FY 2013 
budget request, this report could not be more relevant. All new 
production will cease beginning in FY 2013 and FY 2014. The only major 
acquisition effort by DOD in the tactical wheeled vehicle sector for 
the foreseeable few years will be JLTV, which is designed to replace 
roughly \1/3\ of the current HMMWV fleet. How then do you gauge the 
future health of this sector of the defense industrial base in light of 
these significant reductions?
    General Mills, General Kelley, and Mr. Taylor. The future health of 
the tactical wheeled vehicle industry will face some challenges in the 
coming years due to the significant reductions in new vehicle 
procurement by the Department of Defense. As identified, the JLTV 
program is the only new truck procurement on the horizon for DOD which 
promises intense competition amongst the vendors during both the EMD 
and production phases, and should translate into good production prices 
for the Army and Marine Corps. The Marine Corps' HMMWV Sustainment 
Modification effort will provide some rebuild work as well as the 
procurement of automotive kits in order to modernize and prolong the 
life of the fleet.
    The prospects for subcontractors who provide the major subsystems 
for tactical wheeled vehicles should remain robust in the future as DOD 
will rely on these vendors to supply spares, and improved subsystems 
for modifications, SLEP and IROAN efforts. Additionally, the majority 
of these components are also used on commercial vehicles, therefore 
their business is not tied solely to the Defense Department. Those 
vendors and suppliers with the flexibility to serve both military and 
commercial customer bases are perhaps the best suited to thrive in the 
current acquisition climate. In contrast, those vendors and suppliers 
who focus solely on the military are the most at risk.

    Mr. Bartlett. In today's austere budget environment, how can the 
Marine Corps afford to procure the Joint Light Tactical Vehicle, the 
Amphibious Combat Vehicle, and Marine Personnel Carrier programs?
    General Mills and Mr. Taylor. Combat and tactical vehicle 
modernization is critical to maintaining responsive and relevant 
expeditionary and amphibious combat forces in the future. We have 
sequenced the mature Joint Light Tactical Vehicle (JLTV) program ahead 
of our amphibious vehicle modernization programs in order to reduce 
future procurement bow waves. Similarly, we have accelerated some 
ground programs so that procurement will be completed before we begin 
procurement of the ACV and MPC. We continue to conduct detailed cost-
to-capability assessments and estimates in order to understand and to 
control program costs at the requirements level. We believe that 
investment in these important capabilities can be managed as an 
increased percentage of our future procurement account for a limited 
period of time without incurring significant risk in other warfighting 
areas.
                                 ______
                                 
           QUESTION SUBMITTED BY MR. BARTLETT AND MR. SHUSTER
    Mr. Bartlett and Mr. Shuster. As the Army and the Marine Corps have 
ended combat operations in Iraq and will be looking to do so in 
Afghanistan in 2014, we will inevitably be left with the decision of 
what equipment will be donated or sold to the Afghan Government and 
what we bring home. Part of the most significant investment the 
Congress has made over the past years of combat operations is in the 
development of the Mine-Resistant Ambush Protected (MRAP) vehicle 
fleet. What are your Services' plans to sustain this fleet? Will they 
simply be passed into a new DOD ``boneyard,'' and has the DOD conducted 
any internal analysis for sustaining or consolidating the separate 
supply chains that support each MRAP variant?
    General Lennox and General Phillips. The initial task was to build 
and field MRAPs as fast as possible to address the Improvised Explosive 
Devices threat. Logistic sustainment, while important, was a secondary 
consideration. As a result, the DOD fielded vehicles from six 
manufacturers producing over 26 variants, which makes sustainment a 
challenge. However:
    (1) The DOD plans upgrades to the MRAP capability in an effort to 
bring the earlier variants up to the latest/common configurations. This 
variant consolidation strategy, coupled with the Army's plan to divest 
about 1,200 MRAP vehicles with very low density and/or considered 
uneconomical to repair, will reduce the number of variants from 26-plus 
to 8 and the number of manufacturers will decline from 6 to 4, 
resulting in simplified and improved sustainment and training. Divested 
MRAPs not utilized by other United States Government entities could be 
made available to coalition partners via donation, loan, and/or Foreign 
Military Sales.
    (2) The Army has conducted an extensive analysis regarding vehicle 
quantities, mission roles and sustainment for enduring force MRAPs. As 
Army MRAPs are no longer required in theater, the remaining quantity 
will be reset to a Full Mission Standard. The majority (about 60 
percent) will be placed in augmentation sets (long-term storage) for 
use in future contingency operations, thereby significantly reducing 
the sustainment costs associated with parts and fuel. Sustainment cost 
efficiencies will also result from retrograding current MRAP repair 
parts in theater, when prudent to do so, to sustain enduring force 
MRAPs in peacetime.
    (3) The remaining (about 40 percent) of the Army's MRAPs will be 
allocated on the Tables Of Equipment of specific units (Sustainment, 
Engineer, Explosive Ordnance Disposal, and the various Institutional 
Schools) to support unique training efforts.

    General Mills, General Kelley, and Mr. Taylor. The Marine Corps has 
received 4045 MRAP vehicles. We plan to retain approximately 2600 MRAPs 
for their post-OEF role, specifically toward route clearance, combat 
engineer, EOD, and protected mobility based on the threat faced. Their 
value is unprecedented and no other asset presently available can match 
their performance toward protecting Marines in an environment similar 
to the one currently encountered in OEF.
                                 ______
                                 
           QUESTION SUBMITTED BY MR. LOBIONDO AND MR. ROONEY
    Mr. LoBiondo and Mr. Rooney. Of the Army's $79.4 million request 
for Abrams Engineering Change Proposals, does that amount include 
specific funding for Abrams Engine Technology Insertion to address fuel 
efficiency and improved reliability?
    General Lennox and General Phillips. No, not at this time. However, 
the U.S. Army is considering an Engineering Change Proposal (ECP) 
effort beyond the current Abrams ECP I program. This power-train 
improvement ECP effort would potentially include improvements to both 
the engine and transmission focusing on fuel efficiency, reliability, 
durability, and maintainability. Initial analysis indicates that these 
improvements could result in a 14 percent fuel savings over a combat 
day. Specific engineering efforts would focus on designing a new dual 
centrifugal compressor that will be integrated within the existing 
Total InteGrated Engine Revitalization Allison Gas Turbine-1500, or 
TIGER AGT 1500, engine and changes to the transmission involving a two-
stage main oil pump, evacuated torque converter, and modulated cooling 
fans. The engine/transmission effort will take approximately 5 years 
from project initiation to delivery of the prototype engines/
transmissions available for test. Requirements and funding approval for 
this potential effort is subject to Army priorities and funding 
availability.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. TURNER
    Mr. Turner. I would like to spend some time exploring this idea of 
``reversibility'' and the strange notion that we can just turn 
fundamental national security programs off and then turn them back on 
without assuming an unacceptable level of risk and incurring tremendous 
cost. The President's Strategic Guidance states, ``the concept of 
`reversibility'--including the vectors on which we place our industrial 
base, our people, our active-reserve component balance, our posture, 
and our partnership emphasis--is a key part of our decision calculus.'' 
Secretary Panetta explained that this ``means reexamining the mix of 
elements in the active and reserve components; it means maintaining a 
strong National Guard and Reserve; it means retaining a healthy cadre 
of experienced NCOs [non-commissioned officers] and mid-grade officers, 
and preserving the health and viability of the nation's defense 
industrial base.'' So, please explain to me this concept. If a 
particular parts manufacturer goes out of business and they were the 
only producer of that part--how does ``reversibility'' take this into 
account? In some cases, depending on the complexity of the part, it can 
take over a year for a prime contractor to get another vendor 
qualified? What is the risk of increasing our vulnerability from an 
industrial base perspective where we will be forcing our prime 
contractors to depend on foreign sources to supply critical parts? How 
does shutting down this production line preserve ``the health and 
viability of the nation's defense industrial base''?
    General Lennox. To keep the concept of reversibility a viable one, 
the Army continually works with the suppliers in the commercial 
industrial base to reduce the chances of single points of failure. 
Reductions in the nation's forces will be structured and paced in a way 
to allow the Army to surge, regenerate, and mobilize the capabilities 
and materiel needed for any future contingency. To build in the ability 
to quickly mobilize requires that the Army continue to re-examine the 
mix of elements in its forces and work to preserve the health and 
viability of the nation's Defense Industrial Base.
    Related strategies to support reversibility include a Department of 
Defense-wide effort to assess the health of and risk to the industrial 
base on a Sector-by-Sector, Tier-by-Tier (S2T2) basis. The S2T2 
analysis seeks to identify critical areas that could constitute single 
points of failure and develop strategies to mitigate the risks 
identified. The Army is also incorporating mitigation strategies 
involving the Foreign Military Sales (FMS) program to address 
identified risks. The FMS program allows our vendors to diversify and 
balance military with commercial business so they can weather the lean 
years and be in position to compete when we start investing in the next 
generation of products or recapitalize current platforms. FMS sales 
also help sustain highly skilled jobs in the defense industrial base by 
maintaining and extending production lines, thereby strengthening 
reversibility. The Army would not recommend shutting down a production 
line if shutdown would jeopardize the Army's ability to meet surge 
requirements.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. SHUSTER
    Mr. Shuster. Have Remote Weapons Systems been given a thorough 
capabilities review as a possible subcomponent for future combat 
vehicles such as the JLTV? What is the Army and Marines opinion on the 
possibility of utilizing remote weapons systems on future ground 
vehicle programs and could you talk about the benefits of utilizing 
weapons platforms like the RWS or CROW?
    General Lennox and General Phillips. The RWS gives the Soldier the 
benefit of protection under armor while surveying, acquiring and 
engaging the enemy, both from stationary positions and while on the 
move RWS capability enhance combat operations in several ways. The day 
and thermal optics on the RWS provide a significant improvement over 
current weapon optics. The laser range finder, along with the ballistic 
fire control, provide the ability to put first burst on target with a 
high probability of hit resulting in faster, more effective 
engagements, and a reduction in the expenditure of ammunition, all 
while the Soldier remains protected under armor.
    The JLTV program has a requirement for a RWS capability within the 
Heavy Gun Carrier Variant. The program expects to demonstrate the 
initial integration of their capability during the Engineering and 
Manufacturing Development phase during Fiscal Year 2013 (FY13) and FY14 
in conjunction with Developmental Testing and Limited User Testing. The 
JLTV program will continue the evaluation of the RWS/CROWS integration 
within the Production Deployment phase as part of Production 
Qualification Testing and Multiservice Operational Testing and 
Evaluation during FY16 and FY17.
    RWS has been successfully integrated on existing vehicles. The RWS/
CROWS have been mounted on several thousand Mine Resistant Ambush 
Protected vehicles, half of the Stryker vehicles (5 of 10 variants), 
M1A1 Abrams tanks, and numerous other vehicles in support of operations 
in Iraq and Afghanistan. This combat proven capability has been useful 
to units exposed to improvised explosive devices, snipers and 
firefights with the enemy.
    The Army has an approved Basis of Issue Plan committed to 
permanently mounting RWS on thousands of vehicles for the future force.

    General Mills, General Kelley, and Mr. Taylor. CROWS is in use by 
the U.S. Army and a limited number (five) were fielded to Marines in 
Afghanistan as part of proof of concept and field user evaluation. 
CROWS represents the current generation of remotely operated weapon 
stations in what is likely to be a growth industry. As such, it is one 
system that the Marine Corps is considering for future applications on 
any of several combat and tactical vehicles in our inventory. For JLTV 
specifically, we do not have current plans to procure CROWS or any 
other remote weapon station due to the lack of warfighter demand and 
competing investment priorities. However, during JLTV requirements and 
technical development, we planned for and have designed in the weight, 
space and power requirements to enable a retrofit of remote weapon 
stations if necessary.
                                 ______
                                 
                   QUESTION SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. Army leadership has acknowledged publicly that they 
are unsure if the Modernized Expanded Capacity Vehicle (MECV) program 
would be able to achieve the required levels of survivability and 
mobility necessary against today's threats. The Army leadership has 
also acknowledged that the requirement to improve the HMMWV's 
survivability and mobility still exists and that the reason for killing 
the program was a matter of affordability. Congress provided the Army 
$20M of FY12 RDT&E funding for you to conduct a competitive assessment 
of potential solutions for your MECV program. As a part of the Army's 
risk mitigation plan for the Light Wheeled Vehicle Fleet, can you 
explain to me why wouldn't it make sense to complete the MECV 
competitive assessment so that the Army can make informed decisions as 
necessary in the future?
    General Lennox and General Phillips. Based on the Army and Marine 
Corps' commitment to Joint Light Tactical Vehicle and defense 
department fiscal constraints, the Army could not afford to initiate 
the MECV program. Additionally, the Army felt that it would not be in 
the best interest of industry to participate in a minimally funded 
research and development effort with no profitable procurement period.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. OWENS
    Mr. Owens. General Lennox, for FY 2013, the Army is requesting $116 
million in RDT&E funding for the Joint Tactical Radio System (JTRS) 
Handheld, Manpack and Small Form Fit (HMS) to essentially complete HMS 
radio development and test and evaluation. This is significantly more 
than the $12.5 the Army projected would be necessary to close out the 
program this year. Can you explain the discrepancy between these 
figures, and give me your assessment of whether similar funding will be 
requested in future fiscal years?
    General Lennox. The FY13 HMS RDT&E ($116M) includes a FY13 
increases to fund HMS development and testing caused by delays in MUOS 
waveform delivery and satellite on orbit capability ($45.0M); and 
funding to update the HMS Manpack to the Department of Defense Public 
Key Infrastructure standard ($10.0M); baseline program funding ($61M). 
The program is not expecting to request similar funding in future 
fiscal years unless requirements change.
    Mr. Owens. General Lennox, can you give us your assessment of 
whether the HMS product is meeting expectations in the Network 
Integration Evaluation, and is the program currently experiencing cost 
overruns or is it on track with the fiscal targets originally set 
forward?
    General Lennox. The HMS program is meeting expectations as defined 
in the Capability Production Documents for HMS Manpack and Rifleman 
Radios. These documents define the Joint Service requirements for the 
radios in the HMS program. The Rifleman Radio has successfully 
completed its Initial Operational Test & Evaluation and the HMS Manpack 
Radio is on track to conduct a Multi-Service Operational Test & 
Evaluation in May 2012. The program is executing to the Acquisition 
Program Baseline established at the Milestone C in May 2011. However, a 
funding reduction of $60M to the Fiscal Year 2012 Research, 
Development, Testing and Evaluation (RDT&E) funding and delays in 
Mobile User Objective System (MUOS) waveform have affected HMS cost 
baselines. The overall impact of these actions to the funding baseline 
is still being assessed. The Product Manager is exploring caps on the 
cost of the current RDT&E contract and/or reducing the number of 
Waveforms ported (based on Service requirements) in order to execute 
within current funding levels.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROONEY
    Mr. Rooney. Can you please describe the Army/Marine Corps plan for 
runflat tire systems procurement for the JLTV and GCV programs?
    General Lennox and General Phillips. The current JLTV Capability 
Development Document kit allocation table calls for two percent of the 
U.S. Army's planned vehicles to receive run-flat kits, while the U.S. 
Marine Corps currently does not plan to purchase these kits. The GCV 
technology development effort is on fully-tracked vehicle solutions for 
which runflat standards do not apply.
    Mr. Rooney. Can you please provide the Committee with Army/Marine 
Corps policy on minimum standards for runflat tire systems for the JLTV 
and GCV programs?
    General Lennox and General Phillips. The JLTV specifications 
require all JLTV's to be capable of accepting run-flat tire kits. The 
kit must be able to be applied with two man-hours of effort or less and 
the vehicle must be capable of traveling 18 miles at 20 miles per hour 
with complete loss of pressure in any two tires. These requirements can 
be found in the JLTV Purchase Description document v.3.0.2 under 
paragraph 3.4.5.8.10 Run-Flat Kit. The current Capability Development 
Document kit allocation table calls for two percent of the U.S. Army 
JLTVs to receive run-flat kits, while the U.S. Marine Corps currently 
does not plan to purchase these kits. The GCV technology development 
effort is based on fully-tracked vehicle solutions for which runflat 
standards do not apply.

    Mr. Rooney. Can you please describe the Army/Marine Corps plan for 
runflat tire systems procurement for the JLTV and GCV programs?
    General Mills, General Kelley, and Mr. Taylor. The Marine Corps 
procurement strategy for runflat capability on the JLTV platform is to 
contract for runflat kits as an option on the production contract 
depending upon the results from EMD phase testing. If selected for use 
on the JLTV, the kits will be fully provisioned and available for 
procurement by individual units based on the unit commander's 
discretion and operational environment. This mirrors the strategy of 
other recently procured Marine Corps tactical wheeled vehicles such as 
the Medium Tactical Vehicle Replacement (MTVR) and Logistics Vehicle 
System Replacement (LVSR).
    Mr. Rooney. Can you please provide the Committee with Army/Marine 
Corps policy on minimum standards for runflat tire systems for the JLTV 
and GCV programs?
    General Mills, General Kelley, and Mr. Taylor. The Marine Corps has 
no policy for minimum standards for run flat tire systems. Each vehicle 
is evaluated based on its mission profile with specifications to meet 
the unique requirements of that vehicle.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. CRITZ
    Mr. Critz. As a survivability enabler, has the Marine Corps been 
successful in fielding the Improved Weapons' Loader Station (ILWS) for 
the Marine Corps' armor community?
    General Mills and General Kelley. The Improved Loader's Weapon 
Station has not been fielded. It is currently on schedule for fielding 
to begin in the first quarter of FY13.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY
    Mrs. Roby. Within the U.S. Army, have you assigned a program office 
to lead the effort to develop a universal controller? It appears that 
the equities/responsibilities are spread across several PEOs since 
we're dealing with small UAVs, UGVs and UGSs.
    General Lennox and General Phillips. The universal controller, 
known as the Army ``common controller,'' was originally established as 
part of the Future Combat Systems (FCS) Early-Infantry Brigade Combat 
Team (E-IBCT) effort under Program Executive Office, Integration (PEO-
I). Following the cancellation of FCS in 2009, the programs under the 
E-IBCT were transferred from PEO-I to other Army PEO's. In Fiscal Year 
2011, reprioritization of Army funds resulted in the disestablishment 
of the common controller program. Funding ceased for this program in 
FY11 and the program office was disestablished. Currently, the Army is 
re-evaluating the requirement for a common controller, which will guide 
the future plan for this type of system.
    Mrs. Roby. How long do you think it will take the USMC and the Army 
to develop a joint program for a soldier wearable, universal 
controller?
    General Lennox and General Phillips. Currently, the Army is re-
evaluating the requirement for a common controller, which will guide 
the future plan for this kind of system.
    Mrs. Roby. Recently, the Army published its list of critical 
research and development priorities--and one of the top priorities 
remains reducing soldier load. How do you plan to address and reduce 
the combat load?
    General Lennox and General Phillips. Army Science and Technology 
(S&T) has commenced a new collaborative effort to significantly reduce 
the weight and volume of all items that individual Soldiers in a Small 
Unit must physically carry to accomplish their missions, while 
maintaining or increasing the ability of the Unit to perform tasks. 
This Technology Enabled Capability Demonstration (TECD) effort was 
initiated in FY12 with planned transitions of mature technologies to 
equipment developed for Soldiers.
    The TECD will demonstrate capabilities that reduce weight carried 
and improve operational mission effectiveness through a combination of 
materiel weight reduction, load management tools, off-loading, tactical 
resupply, and availability of load management aid tools. The 
technologies will be evaluated against the current baseline based on 
Afghanistan-like engagement conditions. The overall objective goal for 
SU is that no Solider carries more than 30 percent of their body 
weight. Specific program objectives include: reducing weight of weapons 
and ammunition, power and energy, clothing and equipment; developing 
Load Planning Tool & Decision Aids for SU commanders; evaluating and 
integrating off-loading and resupply-delivery technologies suitable for 
SU/squads in dismounted operations; and increasing scientific 
understanding of load on mission effectiveness (physical and cognitive 
effects) and long-term health effects.
    Mrs. Roby. To this end, today, both Services are operating dozens 
of squad level unmanned systems from Class 1 Unmanned Aerial Vehicles 
(UAV) to Unmanned Ground Vehicles (UGVs) and Unattended Ground Sensors 
(UGS), each with a proprietary controller. These systems have 
demonstrated over and over again their benefit by increasing 
situational awareness and saving lives. This being said, there are huge 
weight costs due to redundancies along with logistical and operational 
costs associated with maintaining many different control systems for 
these lifesavers.
    The Army made great strides developing a Universal Common Ground 
Station for larger UAVs (Tier 2 and Tier 3). And, today this Universal 
Ground Control Station controls multiple unmanned aircraft systems for 
both the Army and USMC. It seems the next, logical step is to deploy a 
lightweight, wearable universal control system to operate the smaller 
UAVs, UGVs and UGSs, as well, as to receive remote video as a common 
architecture from other intelligence, surveillance, and reconnaissance 
assets in the area. In addition to reducing the operational/logistical 
burden on the force as a whole, providing control of this capability to 
the warfighters who are on the ground and engaged in the missions 
undoubtedly would reduce their load and increase their force protection 
through enhanced situational awareness while increasing the 
effectiveness of the unit.
    I understand that the Army and the Marine Corps (through the Rapid 
Equipping Force (REF) and the USMC Warfighting Lab in conjunction with 
Naval Surface Warfare Center Dahlgren (MSWCDL)) are evaluating such 
lightweight systems (10 lbs) with favorable results in Afghanistan 
that enable the squad by providing this capability to them for mission 
use.
    Where do we stand in developing a joint acquisition program to 
broadly provide our warfighters with this capability?
    General Lennox and General Phillips. The Army and the Marine Corps 
are jointly developing the Tactical Robotic Controller (TRC) Capability 
Development Document, which could provide a Warfighter wearable, 
universal controller for Battalion and below Unmanned Air/Ground 
Systems. Current systems in this category include: the Rucksack 
Portable UAS (Raven, Wasp, and Puma), Small UGV, Man Transportable 
Robotic System, Engineer Squad Robot (ESR), Micro UGV, and Squad Multi-
Equipment Transport. The Army/Marine Corps Tactical Robotics Controller 
Capabilities Development Document draft will enter staffing in August 
2012. A Materiel Development Decision to establish the TRC Joint 
Program of Record is expected in 4QFY12. A decision to assign a program 
office has not yet been made by the Army.

    Mrs. Roby. Within the U.S. Army, have you assigned a program office 
to lead the effort to develop a universal controller? It appears that 
the equities/responsibilities are spread across several PEOs since 
we're dealing with small UAVs, UGVs and UGSs.
    General Mills, General Kelley, and Mr. Taylor. The universal 
controller, known as the Army ``common controller,'' was originally 
established as part of the Future Combat Systems (FCS) Early-Infantry 
Brigade Combat Team (E-IBCT) effort under Program Executive Office, 
Integration (PEO-I). Following the cancellation of FCS in 2009, the 
programs under the E-IBCT were transferred from PEO-I to other Army 
PEO's. In Fiscal Year 2011, reprioritization of Army funds resulted in 
the disestablishment of the common controller program. Funding ceased 
for this program in FY11 and the program office was disestablished. 
Currently, the Army is re-evaluating the requirement for a common 
controller, which will guide the future plan for this type of system.
    Mrs. Roby. How long do you think it will take the USMC and the Army 
to develop a joint program for a soldier-wearable, universal 
controller?
    General Mills, General Kelley, and Mr. Taylor. We plan to field 
this capability in the FY-19 timeframe. The ability to field this 
system in a timely manner will largely depend on the funding available 
for completion of the development and procurement of systems in 
sufficient quantities. We, in collaboration with the Army and Navy, are 
developing requirements for a Tactical Robotic Controller (TRC) 
capability. The TRC will provide ground forces at the Battalion level 
and below with a single device that will effectively control all Group 
I Unmanned Aerial Systems (UAS), Unmanned Ground Systems (UGS), and 
Unattended Ground Sensors. This capability will be in the 8-10 lb range 
and will be wearable or have the ability to be attached to existing 
equipment worn on the Marine or Soldier. The TRC is envisioned to 
replace all of the individual proprietary Operator Control Units that 
are currently required to operate these systems. The Marine Corps 
Warfighting Lab developed a prototype Tactical Robotic Controller (TRC) 
architecture and hardware that has been tested in USMC Limited 
Objective Experiments (LOE) for the last three years. This prototype 
hardware has also been delivered as the controller for several systems 
that are undergoing Operational Assessments in theater. The prototype 
TRC hardware has also undergone limited testing as a wearable Remote 
Video Terminal and is assessed to be at a Technology Readiness Level of 
7.
    Mrs. Roby. Recently, the Army published its list of critical 
research and development priorities--and one of the top priorities 
remains reducing soldier load. How do you plan to address and reduce 
the combat load?
    General Mills, General Kelley, and Mr. Taylor. The Marine Corps is 
actively engaged with our Army counterparts at various levels to reduce 
the combat load on our Marines. We also seek and have partnered with 
our international and coalition partners in order to share the 
information we have learned and to harvest and implement the good ideas 
they may have. We are committed to using every resource available in 
order to integrate the squad as a system and manage the weight, 
ergonomic, thermal and volumetric burdens of the Marine.
    The Marine Corps has established a Marine Expeditionary Rifle Squad 
(MERS) integration facility called Gruntworks to characterize how 
components of a Marine's equipment influence combat performance in 
terms of weight, bulk and flexibility. Gruntworks' activities seek to 
better integrate fielded equipment and soon-to-be fielded equipment on 
the individual Marine in a more ergonomic way. This effort also 
provides a metric for mobility in various equipment configurations for 
the evaluation of future systems.
    MERS does not procure equipment but works instead with all of the 
Program Managers within Marine Corps Systems Command to ensure 
individual items are integrated into an effective combat fighting 
capability with a balanced redundancy within the squad. MERS is unique 
in that its performance metrics are not cost, schedule and performance, 
but rather the effectiveness of the Marine squad, user acceptance of 
the equipment provided and the increase in mobility of Marines in 
combat.
    We plan to pursue a fully integrated infantry system of equipment 
that will be driven by an overarching requirement. This requirement 
will drive integration of capabilities more effectively at the 
requirements level instead of trying to engineer it during materiel 
development. The first increment of this capability will seek to better 
integrate the capabilities being fielded now or in the near future; the 
second increment will leverage emerging technologies to define 
attributes for the baseline load bearing, protection, and power systems 
and will require that all additional capabilities be fully integrated 
with those baseline systems. This will reduce or eliminate the need for 
additional capabilities to have their own power, cabling, and carrying 
pouches, thereby reducing the bulk and weight of the requisite combat 
load. The Army is taking a similar approach and the requirements and 
acquisition communities in both Services are sharing their ideas to 
collaborate where their interests coincide.
    Mrs. Roby. To this end, today, both Services are operating dozens 
of squad level unmanned systems from Class 1 Unmanned Aerial Vehicles 
(UAV) to Unmanned Ground Vehicles (UGVs) and Unattended Ground Sensors 
(UGS), each with a proprietary controller. These systems have 
demonstrated over and over again their benefit by increasing 
situational awareness and saving lives. This being said, there are huge 
weight costs due to redundancies along with logistical and operational 
costs associated with maintaining many different control systems for 
these lifesavers.
    The Army made great strides developing a Universal Common Ground 
Station for larger UAVs (Tier 2 and Tier 3). And, today this Universal 
Ground Control Station controls multiple unmanned aircraft systems for 
both the Army and USMC. It seems the next, logical step is to deploy a 
lightweight, wearable universal control system to operate the smaller 
UAVs, UGVs and UGSs, as well, as to receive remote video as a common 
architecture from other intelligence, surveillance, and reconnaissance 
assets in the area. In addition to reducing the operational/logistical 
burden on the force as a whole, providing control of this capability to 
the warfighters who are on the ground and engaged in the missions 
undoubtedly would reduce their load and increase their force protection 
through enhanced situational awareness while increasing the 
effectiveness of the unit.
    I understand that the Army and the Marine Corps (through the Rapid 
Equipping Force (REF) and the USMC Warfighting Lab in conjunction with 
Naval Surface Warfare Center Dahlgren (MSWCDL)) are evaluating such 
lightweight systems (10 lbs) with favorable results in Afghanistan 
that enable the squad by providing this capability to them for mission 
use.
    Where do we stand in developing a joint acquisition program to 
broadly provide our warfighters with this capability?
    General Mills, General Kelley, and Mr. Taylor. The Marine Corps, in 
collaboration with the Army and Navy, are developing requirements for a 
Tactical Robotic Controller (TRC) capability. The Marine Corps 
Warfighting Lab developed a prototype TRC architecture and hardware 
that has been tested in USMC Limited Objective Experiments (LOE) for 
the last 3 years. This prototype hardware has also been delivered as 
the controller for several systems that are undergoing Operational 
Assessments in theater. The prototype TRC hardware has also undergone 
limited testing as a wearable Remote Video Terminal. The TRC will 
provide ground forces at the Battalion level and below with a single 
device that will effectively control all Group I Unmanned Aerial 
Systems (UAS), Unmanned Ground Systems (UGS), and Unattended Ground 
Sensors. This capability will be in the 8-10 lb range and will be 
wearable or have the ability to be attached to existing equipment worn 
on the Marine or Soldier. The TRC is envisioned to replace all of the 
individual proprietary Operator Control Units that are currently 
required to operate these systems. We plan to field this capability in 
the FY-19 timeframe.

                                  <all>

</pre></body></html>
